<html>
<title> - THE METHAMPHETAMINE EPIDEMIC IN COLORADO</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                THE METHAMPHETAMINE EPIDEMIC IN COLORADO

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 7, 2006

                               __________

                           Serial No. 109-225

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
34-235                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
VIRGINIA FOXX, North Carolina        ELEANOR HOLMES NORTON, District of 
JEAN SCHMIDT, Ohio                       Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                        Dennis Kilcoyne, Counsel
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 7, 2006.....................................     1
Statement of:
    Abrahamson, Larry, district attorney, 8th Judicial District; 
      Ken Buck, district attorney for the 19th Judicial District; 
      John Cooke, sheriff, Weld County; Lieutenant Craig Dodd, 
      commander, Larimer County Drug Task Force; Janet Rowland, 
      commissioner, Mesa County; Robert Watson, district 
      attorney, 13th Judicial District; and Ms. Donita Davenport.    36
        Abrahamson, Larry........................................    36
        Buck, Ken................................................    43
        Cooke, John..............................................    47
        Davenport, Donita........................................    65
        Dodd, Craig..............................................    53
        Rowland, Janet...........................................    57
        Watson, Robert...........................................    63
    Sweetin, Jeff, Assistant Special Agent in Charge of DEA, 
      Denver Field Division......................................    17
Letters, statements, etc., submitted for the record by:
    Abrahamson, Larry, district attorney, 8th Judicial District, 
      prepared statement of......................................    39
    Buck, Ken, district attorney for the 19th Judicial District, 
      prepared statement of......................................    45
    Cooke, John, sheriff, Weld County, prepared statement of.....    50
    Davenport, Donita, prepared statement of.....................    69
    Dodd, Lieutenant Craig, commander, Larimer County Drug Task 
      Force, prepared statement of...............................    55
    Musgrave, Hon. Marilyn N., a Representative in Congress from 
      the State of Colorado, prepared statement of...............    11
    Rowland, Janet, commissioner, Mesa County, prepared statement 
      of.........................................................    60
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Sweetin, Jeff, Assistant Special Agent in Charge of DEA, 
      Denver Field Division, prepared statement of...............    19


                THE METHAMPHETAMINE EPIDEMIC IN COLORADO

                              ----------                              


                          FRIDAY, JULY 7, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                      Loveland, CO.
    The subcommittee met, pursuant to notice, at 10 a.m., 
Loveland Municipal Building, 500 East Third Street, Loveland, 
CO, Hon. Mark E. Souder (chairman of the subcommittee) 
presiding.
    Present: Representatives Souder, Kilcoyne, and Musgrave.
    Staff present: Dennis Kilcoyne, counsel; and John Dudley, 
congressional fellow.
    Mr. Souder. Good morning, and I thank you all for coming. 
This hearing continues our subcommittee's work on the growing 
problem of methamphetamine trafficking and abuse, a problem 
that has ravaged communities across the country.
    I'd like to thank my fellow Member of Congress, Marilyn 
Musgrave, who invited us here to her district. She has been a 
strong advocate in the House for an effective bipartisan anti-
meth strategy. I'm looking forward to working with her on new 
legislation for this Congress, and I hope that the information 
we gather at this hearing will help us achieve that goal.
    Meth is one of the most powerful and dangerous drugs 
available. It's also one of the easiest to make. It is perhaps 
best described as a perfect storm, a cheap, easy-to-make drug 
with devastating health and environmental consequences, which 
consumes tremendous law enforcement and other public resources 
and is extremely addictive and difficult to treat. If we fail 
to get control of it, meth will wreak havoc in our communities 
for generations to come.
    This is actually the 15th hearing focusing on meth held by 
the subcommittee since 2001. In places as diverse as Indiana, 
Oregon, Hawaii, Minnesota and North Carolina, I have heard 
moving testimony about how this drug has wreaked havoc on 
people and their families.
    I've also learned about the many positive ways that 
communities have fought back, targeting the meth cooks and 
dealers, trying to get addicts into treatment, and working to 
educate young people about the risks of meth abuse.
    At each hearing, then, we try to get a picture of the state 
of meth trafficking and the abuse in that regional area. Then 
we ask three questions.
    First, where does meth in the area come from, and how do we 
reduce the supply? Second, how do we get people into treatment, 
and how do we keep young people from starting meth use in the 
first place? And finally, how can the Federal Government 
partner with State and local agencies to deal with this 
problem?
    The next question, that of meth supply, divides into two 
separate issues, because the drug comes from two major sources. 
The most significant source in terms of the amount produced 
comes from the so-called superlabs, which, until recently, were 
mainly located in California, but are now increasingly located 
in northern Mexico.
    By the end of the 1990's, these superlabs produced over 70 
percent of the Nation's supply of meth, and today it is 
believed that 80 percent or more comes from Mexican superlabs. 
The superlabs are operated by large Mexican drug-trafficking 
organizations that have used their established distribution and 
supply networks to transport meth throughout the country.
    A second major source of meth comes from small local labs 
that are generally unaffiliated with major trafficking 
organizations. These labs, often called mom-and-pop or clan or 
nazi labs, have proliferated throughout the country, often in 
rural areas.
    The total amount of meth actually supplied by these labs is 
relatively small. However, the environmental damage and health 
hazard they create in the form of toxic pollution and chemical 
fires make them a serious problem for local communities, 
particularly the State and local law enforcement agencies 
forced to uncover and clean them up.
    Children are often found at meth labs and have frequently 
suffered from severe health problems as a result of chemical 
saturation in the houses used to make the drug.
    Since meth has no single source of supply, no single 
regulation will be able to control it effectively. To deal with 
the local meth lab problem, many States, including Colorado, 
have passed various forms of retail sales restrictions on 
pseudoephedrine products like cold medicines.
    Some States limit the number of packages a customer can 
buy. Others have required that cold medicines be placed behind 
pharmacy counters. Retail sales restrictions appear to have had 
a major impact on this number of small labs.
    However, retail sales regulations will not deal with the 
large-scale production of meth in Mexico. That problem will 
require either better control of the amount of pseudoephedrine 
going into Mexico or better control of drug smuggling on our 
southwest border or both.
    The Federal Government, in particular the Department of 
Justice, Homeland--State and Homeland Security, will have to 
take the lead if we are to get results.
    And I should point out I'm going to ask the question--we 
have seen a major rise in Oregon and a couple of States of 
Internet sales of pseudoephedrine, and I want to see if we're 
seeing any of that in Colorado. And Oklahoma has another 
variation of it. So the States that did the pseudoephedrine 
control first are now finding that even their mom-and-pop labs 
are starting to curve back up.
    The next major question is demand reduction. How do we get 
meth addicts to stop using, and how do we get young people not 
to try meth in the first place?
    I am encouraged by the work of a number of programs at the 
State and local level, with assistance from the Federal 
Government, including drug court programs, which seek to get 
meth drug offenders into treatment programs in lieu of prison 
time; the Drug-Free Communities Support Program, which helps 
the work of community anti-drug coalitions to bring drug use 
prevention education to young people; and the President's 
Access to Recovery treatment initiative, which seeks to broaden 
the number of treatment providers.
    The final question we need to address is how the Federal 
Government can best partner with State and local agencies to 
deal with meth and its consequences. Currently, the Federal 
Government does provide a number of grants and other assistance 
programs to State and local agencies.
    In addition to the programs I mentioned earlier, the Byrne 
Grants and the COPS Meth Hot Spots programs help fund anti-meth 
law enforcement task forces. The DEA and other agencies assist 
State and local agencies with meth lab cleanup costs. The Safe 
and Drug-Free Schools program and the National Youth Anti-Media 
Drug Campaign help schools and other organizations provide 
anti-meth education.
    However, we will never have enough money at any level of 
government to do everything we might want to do with respect to 
meth. That means that Congress and State and local policymakers 
need to make some tough choices about which activities and 
programs to fund and at what level.
    We also need to strike the appropriate balance between the 
needs of law enforcement and consumers and between supply 
reduction and demand reduction.
    Fortunately, I believe a big step forward was taken in 
March, when Congress passed and the President signed into law 
the Combat Methamphetamine Epidemic Act. This comprehensive law 
is designed to tackle meth trafficking in every State, from 
precursor chemical control to international monitoring, from 
environmental regulation to child protection.
    There was a strong bipartisan cooperation. The legislation 
moved through Congress quickly as Members got the message from 
the grassroots that meth doesn't respect State boundaries. We 
will be closely watching the implementation of this law and 
looking for new ways to thwart meth traffickers and help those 
individuals, families and communities that have been devastated 
by this drug.
    We have an excellent group of witnesses today who will help 
us make sense of these complicated issues. For our first panel, 
we are joined by Mr. Jeff Sweetin, assistant special agent in 
charge of the DEA's Denver Field Division.
    For our second panel, we are joined by the Honorable Larry 
Abrahamson, district attorney for the 8th judicial district; 
the Honorable Ken Buck, district attorney for the 19th judicial 
district; the Honorable John Cooke, sheriff of Weld County; 
Lieutenant Craig Dodd, Commander of the Larimer County Drug 
Task Force; and the Honorable Janet Rowland, who is a 
commissioner from Mesa County; and the Honorable Bob Watson, 
district attorney for the 13th judicial district.
    We are also joined by Ms. Donita Davenport, who has a 
painful story to tell us about how the meth epidemic has 
affected her family.
    We thank everyone for taking time to join us today, and we 
are looking forward to your testimony.
    I'd now like to yield to our host and a good friend, 
Congresswoman Marilyn Musgrave.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4235.001
    
    [GRAPHIC] [TIFF OMITTED] T4235.002
    
    [GRAPHIC] [TIFF OMITTED] T4235.003
    
    Mrs. Musgrave. Thank you, Mr. Souder.
    Well, good morning to all of you. I look out on the 
audience, and I just want to tell each one of you that I 
respect and admire you for the work you do in our communities, 
and I'm very glad you're here this morning.
    Mr. Souder, I'd just like to thank you for coming to 
Colorado. The chairman has a real heart for this issue, 
combating meth. And it's an honor to have you in Loveland, CO 
today.
    First, you know that meth is a central nervous system 
stimulant. It's a very highly dangerous drug that is causing 
enormous problems for families and communities. And the drug 
use is spreading across the United States. The meth production 
is increasing domestically and internationally.
    We are here to hold this hearing today to hear from law 
enforcement officials and members of the community who deal 
with this meth problem firsthand.
    Methamphetamine abuse, production and trafficking presents 
unique problems that are not associated with most drugs. 
According to the Substance Abuse and Mental Health Services 
Administration, in 2004, 1.4 million persons aged 12 and older 
had used meth in the past year, and 583,000 have used it in the 
past month. Since this study, the problem has only gotten 
worse.
    Chronic meth use can lead to irreversible brain and heart 
damage, psychotic behavior, and rages and violence. Withdrawal 
from the drug can induce paranoia, depression, anxiety and 
fatigue. Because of the seriousness of this problem, Congress 
has been working to address illegal meth abuse and production.
    The precursor chemicals necessary, as the chairman said, 
for producing meth are commonly found in over-the-counter cold 
and sinus medicines that have legitimate uses and are available 
in retail quantities from any drug store.
    The local small laboratories that are used to produce meth 
can create substantial public safety and environmental 
problems. They create the possibilities of explosion, toxic 
waste dumps, and serious child endangerment.
    The dangers of production and the toxic nature of meth labs 
are serious and can affect innocent people in unsuspecting 
apartments and motels. We are just beginning to discover the 
negative effects of these toxic meth lab sites.
    Legislation has been passed to further regulate meth 
precursor chemicals, enhance penalties for drug trafficking, 
and increase funding for meth-specific law enforcement 
programs.
    I am a proud co-sponsor of Mr. Souder's bill, the 
Methamphetamine Epidemic Elimination Act, which restricts 
access to over-the-counter drugs that are used to make meth in 
home labs. I'm happy to report this bill was signed into law by 
our President this year.
    Regulation of these meth precursor chemicals have done much 
in addressing this problem. There have been over 1,300 
methamphetamine lab seizures in Colorado since 2001.
    Another step taken by Congress has been the creation of the 
High Intensity Drug Trafficking Area program within the Office 
of National Drug Control Policy. This program designates 28 
areas around the country as high-intensity drug trafficking 
areas.
    And these designations are meant to help Federal, State and 
local law enforcement agencies cooperate, share information, 
and coordinate their strategies and drug-enforcement 
activities.
    Colorado is part of the Rocky Mountain High-Intensity Drug 
Trafficking Area, a program that works hard and has realized 
many positive results in the fight against drugs.
    The scourge of methamphetamine use is threatening the 
qualify of life in communities across Colorado. According to 
the Drug Enforcement Administration, most of the meth in 
Colorado comes from large-scale laboratories in Mexico and 
California.
    Local meth production has been decreased because of the 
crackdown on precursor chemical supplies, as the mayor and I 
talked about this morning, but Mexican drug trafficking 
organizations are increasing the presence and distribution of 
meth in Colorado.
    According to the Rocky Mountain HIDTA, manpower and 
resources previously allocated to investigations of local meth 
production are now being shifted to investigation of major 
Mexican drug trafficking organizations.
    Meth abuse not only affects the individuals that are using 
the drug. It affects families and entire communities. The 
increased availability and abuse of meth has led to an increase 
in drug-related crimes. The growing meth problem is increasing 
the burden faced by local and State law enforcement officials.
    Local law enforcement has seen an increase in robbery, 
domestic violence, forgery, and currently counterfeiting in 
areas where meth abuse is rampant. Arrests related to these 
crimes are overburdening our court systems, treatment 
facilities, and prisons and jails.
    I am also a co-sponsor of the Combat Meth Act, which would 
fund training for State and local prosecutors and law 
enforcement agents to investigate and prosecute meth offenses. 
It would also provide grant funds to hire personnel and 
purchase equipment to assist in this endeavor.
    I was happy to work to bring important grant money to 
Larimer and Weld counties this year to assist them with their 
law enforcement initiatives, including dealing with the meth 
problem.
    We have a responsibility to our State and local law 
enforcement agencies and our communities to work toward a 
solution to this serious problem. The meth epidemic deserves 
our full attention because of this drug's incredible 
destructive potential.
    Beyond the law enforcement aspect of this problem, there 
are treatment centers and programs to help people with their 
addictions. One such group is the Denver Rescue Mission. I have 
met with representatives from the mission and some of the 
people they have helped. I have heard first-hand the horrors 
that this drug creates.
    One of the most touching things that I had in my office was 
meeting with a young woman who had been a meth addict. And she 
had her little daughter with her. But she told me the story of 
her drug addiction, of what she was like when she used 
methamphetamine and how she lost custody of her daughter.
    And the incredible part of this story was this woman had 
overcome this addiction with a great deal of help, and she had 
regained custody of her daughter. But the heartbreak that goes 
along with the scourge of methamphetamine is just enormous.
    In my own community, there was a young woman that died 
because of her meth use, and she left three little children 
that were being raised by their grandparents, because this 
beautiful young woman, who had been an honor student and been 
an athlete, just had her very existence taken away by the use 
of methamphetamine.
    She went from a beautiful young woman to someone whose 
teeth were literally rotting in her mouth. And her appearance 
dramatically was altered. And then of course, she ended up 
dying. And her parents work as much as they can to tell their 
tragic story so that other families will not have to suffer the 
same fate.
    I look forward to hearing testimony from people today 
that--again, that I respect and admire for the job that they 
do. And I hope that we can raise public awareness and come up 
with solutions as to what we need to do in Colorado to address 
this issue.
    Thank you all for being here, and thank you, Mr. Chairman.
    [The prepared statement of Hon. Marilyn N. Musgrave 
follows:]

[GRAPHIC] [TIFF OMITTED] T4235.004

[GRAPHIC] [TIFF OMITTED] T4235.005

[GRAPHIC] [TIFF OMITTED] T4235.006

    Mr. Souder. Thank you.
    Before proceeding with our testimony, we need to take care 
of some procedural matters. First, all Members have 5 
legislative days to submit written statements and questions for 
the hearing record. Any answers to written questions provided 
by the witnesses will also be included in the record without 
objection if so ordered.
    Second, I ask consent that all exhibits, documents and 
other materials referred to by Members and witnesses may be 
included in the hearing record and that all Members be 
permitted to revise and extend their remarks without objection 
if so ordered.
    Finally, I ask consent that all Members present be 
permitted to participate in the hearing without objection if so 
ordered.
    Let me briefly explain for those of you who haven't been at 
a hearing or watched on CSPAN a little bit what we're doing 
today. What I just went through is a process that is somewhat 
rare, because in the--particularly as we approach an election 
year, it is harder and harder to get bipartisan cooperation.
    This committee has worked in a very bipartisan way. And our 
ranking Democrat member, Elijah Cummings, who has occasionally 
attended some of the field hearings but has let me conduct 
these hearings and allowed us to go forward--as has Henry 
Waxman, the ranking Democrat in the full committee, and 
Chairman Davis--in a bipartisan way.
    Because we really don't have differences on how--major 
differences; we have some differences--on how we're approaching 
particularly methamphetamine right now.
    Congressman Cummings represents Baltimore. His problems are 
mostly cocaine and heroin, marijuana. He hasn't really had meth 
in Baltimore, but he's attended a number of these meth 
hearings, because he knows it's a big part--in other parts of 
the country.
    We've just done a series of hearings related to some of his 
concerns that he's been having in some of the east--with a 
number of the members there. But it's relatively unique. And 
what I just went through was a procedural matter that, in 
effect, enables us to go forward in how we do documents.
    Now, this is an oversight committee. I'll have to swear in 
each of the witnesses--that you will now be part of the same 
committee's record--as says Mark McGwire, who didn't want to be 
sworn in during the steroid hearings. And as all the attorneys 
here will understand--moved to multiple cities so he didn't get 
a subpoena to our hearing to duck being called, because he 
didn't want to put up his oath.
    And then he simply didn't want to talk about the past, 
because if you don't tell the truth to a congressional hearing, 
you're subject to prosecution for perjury--and that if he told 
the truth, he might be subject to prosecution for other things.
    So hopefully today, I want to make a couple things clear. 
We're here to talk about the past, because we can't learn about 
the future without talking about the past. We expect you to 
tell the truth, and we'll try not to ask you too many 
embarrassing personal questions that would make you 
uncomfortable.
    But our committee has oversight responsibility. In 
Congress, you have three types of committees--the first two 
that were created in the Constitution where the House was 
giving the appropriation and tax powers. So all tax and funding 
legislation originates in the House of Representatives.
    The second group of committees that were formed were 
actually oversight, to see whether the early Presidents were 
spending the money the way Congress wanted it spent.
    The third group that was created were authorizing 
committees. So if you take something, say, for Rocky Mountain 
National Park, the authorizing committee would, if there was a 
question of--let's say somebody who had an in holding, just to 
pick a sore subject--somebody who had an in holding--and that 
would go through the resources committee.
    There would have to be an appropriations question. And then 
this--in fact, my subcommittee has oversight over the national 
parks--would review to see whether the administration is 
following through that.
    Now, what's unusual about this committee was--is that so 
many committees deal with narcotics. In addition to oversight, 
we actually do the authorizing part of the legislation too for 
the Office of National Drug Control Policy, which was put 
together--the so-called drug czar--to coordinate national 
policy.
    We've also picked up a number of other things that puts us 
directly over the national ad campaign. But also the community 
in a drug coalition CADCA went through our subcommittee in 
authorizing as well as oversight--and as well as a number of 
other programs so that we only had--we have 23 different 
committees with drug jurisdiction, but we are trying to 
consolidate some of that in our committee.
    So I wanted to give you a little bit of what we do. We have 
Washington hearings just last--was it last week we did the 
meth-treatment hearing--in the District of Columbia. Now, you 
also heard me--in Washington, DC, is where those field 
hearings--you also heard me say--ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions. Now, I want to make this clear more for the DEA 
with the comment that we submitted written questions--and you 
heard me say 5 legislative days, which is what we always say--
on November 18, 2004.
    And on June 27th, we got the answers back. That's June 27, 
2006. We don't consider that a timely response to written 
questions. That--we've expressed that to the assistant attorney 
general. We understand that there are several things in this.
    And I'm actually going to ask the reporter to insert the 
full answers to the questions into the record. Because I 
understand--but I want to make this clear in the record, and 
I'm sure it will get passed back up to Washington--what I've 
said here.
    Our hearings are going to take a lot longer if I have to 
ask all the questions at the hearing rather than wait a year 
and a half to get the responses. I understand from looking at 
the questions what some of the problem here is. And the reason 
I want this inserted into the record is there are some 
questions here that have come up at about six or eight hearings 
that are very--were very difficult and required a lot of cross-
analyzation.
    Now, a year and a half's a little long. But one was are we 
finding alternatives to pseudoephedrine that we're seeing. 
Because we heard, I believe in Ohio, a rumor about one 
alternative.
    Also about the Glotel product--of which the answer was very 
short. That probably could have been done in say 6 months 
rather than a year and a half.
    That--in the--but a number of these questions are 
repetitive questions that come up at the hearings, and I think 
having them in the record will be a backup. But--and I know not 
all this, for those who are in attendance, is the problem with 
an individual agency.
    In this case, we had a number of controversial questions 
that, once they appear in a hearing like this in front of our 
committee--it more or less becomes the official position of 
DEA. So they wanted to make sure that they had enough coming up 
from the grassroots to make sure of their answers.
    But then we go through another whole process, which is, in 
this oversight committee, an increasing exasperation. And that 
is that everything that has to run up to the attorney general's 
office. So it has to run through everybody's opinion up at the 
headquarters.
    Then it goes over to Office of Management and Budget, 
because one of the questions here is do you need additional 
funding for anything. Well, that's like a nightmare in the 
administration, because that means it's got to run through 
every budget person.
    They got to run up and down over to the political office, 
ask--oh, they might want to spend another $100,000 on meth--and 
that it holds up the process. But I know you are not directly 
involved in this. And I have a very good relationship with DEA.
    But Congress is getting increasingly exasperated with lack 
of timely responses when we're trying to figure out how to deal 
with this question. And I know that we have had a very bitter 
internal battle--of which DEA has been, quite frankly, one of 
our only allies, as well as the HIDTA program--at the Federal 
level in trying to focus on meth.
    This is just a little minor irritation, but it--that--it 
came up just on June 27th. And needless to say--first off, we 
were thankful we got answers in a year and a half. It's almost 
better if we let us forget about--that we asked the questions, 
because it just added insult to injury last week to take this 
long to get a response on a major issue and, by the way, not 
get the response until after we passed the bill.
    That is just part of the frustrating process. Now, aren't 
you glad you got to be the Federal representative on the panel?
    We also have Mr. Tom Gorman in the audience today, who 
heads the Rocky Mountain HIDTA and the national association. 
And if I don't summon him up to the table today, we may ask you 
some additional followup questions on the region, depending on 
what comes up.
    Our first witness today is Mr. Jeff Sweetin, assistant 
special agent in charge of the Denver district office of DEA. 
If you'll stand and raise your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative.
    Thank you very much for coming. Without DEA's help at the 
grassroots level, we wouldn't have made the progress we've made 
on methamphetamine. And let me first thank DEA for that--and 
look forward to hearing comments today.

STATEMENT OF JEFF SWEETIN, ASSISTANT SPECIAL AGENT IN CHARGE OF 
                   DEA, DENVER FIELD DIVISION

    Mr. Sweetin. Chairman Souder and distinguished Members of 
Congress, my name is Jeffrey D. Sweetin. I am the special agent 
in charge of the Drug Enforcement Administration's Denver field 
division. On behalf of the DEA Administrator Karen Tandy, I 
appreciate your invitation to testify regarding the DEA's 
efforts in the Colorado region to combat methamphetamine.
    We have witnessed a rapid evolution of the methamphetamine 
trafficking situation in Colorado. However, the drug is not new 
to the Colorado region. Law enforcement has been combating 
methamphetamine for well over 20 years, and we have seen first-
hand its devastating effects.
    In Colorado and across the Nation, we have led successful 
enforcement efforts focusing on methamphetamine and its 
precursor chemicals and have worked with our Federal law 
enforcement partners to combat this drug.
    Methamphetamine found in the U.S. originates from two 
principle sources. Most of the methamphetamine found in the 
United States is produced by Mexico and California-based 
traffickers--Mexican traffickers whose organizations control 
superlabs. Current data suggests that roughly 80 percent of the 
methamphetamine consumed in the United States comes from these 
large labs.
    The second source for methamphetamine is small toxic labs. 
These labs produce relatively small amounts of methamphetamine 
and are generally not affiliated with major trafficking 
organizations. The precise breakdown is not available, but it 
is estimated that these labs are responsible for approximately 
20 percent of the methamphetamine consumed in America.
    Methamphetamine is a significant drug throughout--in the 
Colorado region where demand, availability and abuse have 
increased in all areas of the State. The market for 
methamphetamine, both in powder and crystal form, is dominated 
by Mexican poly drug trafficking organizations.
    Small toxic labs producing anywhere from a few grams to 
several ounces of methamphetamine operate within the State. 
These labs present unique problems to law enforcement and 
communities of all size.
    The DEA, both nationally and in Colorado, focuses its 
overall enforcement operations on large regional, national and 
international drug-trafficking organizations responsible for 
the majority of the illicit drug supply in the United States.
    The Denver field division's enforcement efforts are led by 
DEA special agents and task force officers from State and local 
agencies, who, along with our diversion investigators and 
intelligence research specialists, work to combat the drug 
threats facing Colorado.
    During the last year, our efforts in Colorado have resulted 
in significant methamphetamine-related arrests, some of which 
occurred as part of investigations conducted under the OCDETF 
program and DEA's Priority Target Organization program. The 
DEA, to include the Denver field division, is working with 
other law enforcement agencies in a campaign to fight 
methamphetamine.
    In response to the hazardous nature of clandestine 
laboratories, DEA offers training to investigate and safely 
dismantle these laboratories. Since 1998, DEA's office of 
training has provided training to over 12,000 officers from 
across the country. Our office of training has provided 
clandestine laboratory training to more than 128 officers from 
Colorado since fiscal year 2002.
    The DEA's Hazardous Waste Cleanup Program is designed to 
address environmental concerns from the seizure of clandestine 
laboratories. This program, with the assistance of grants to 
State and local enforcement, supports and funds the cleanup of 
the majority of laboratories seized in the United States.
    The program promotes the safety of law enforcement 
personnel and the public by using companies with specialized 
training and equipment to remove hazardous waste. In fiscal 
year 2005, the cost of administering these cleanups was 
approximately $17.7 million. The DEA administered 436 lab 
cleanups in Colorado during fiscal year 2004 and 2005 at a 
total cost of $553,588.
    The DEA, both nationally and within Colorado, is keenly 
aware that we must continue our fight against methamphetamine 
on multiple fronts. Our enforcement efforts are focused against 
methamphetamine trafficking organizations and those who provide 
its precursor chemicals.
    We also are providing vital training in lab cleanups to our 
State and local counterparts who are outstanding partners with 
us in combating this problem.
    Law enforcement has experienced some success in the fight, 
though much work remains to be done. Thank you for your 
recognition of this important issue and the opportunity to 
testify here today, and I'll be happy to answer any questions 
you may have.
    [The prepared statement of Mr. Sweetin follows:]

    [GRAPHIC] [TIFF OMITTED] T4235.007
    
    [GRAPHIC] [TIFF OMITTED] T4235.008
    
    [GRAPHIC] [TIFF OMITTED] T4235.009
    
    [GRAPHIC] [TIFF OMITTED] T4235.010
    
    [GRAPHIC] [TIFF OMITTED] T4235.011
    
    [GRAPHIC] [TIFF OMITTED] T4235.012
    
    [GRAPHIC] [TIFF OMITTED] T4235.013
    
    [GRAPHIC] [TIFF OMITTED] T4235.014
    
    Mr. Souder. The number--it looks like the number of labs in 
Colorado that you've--have been reported have dropped steadily 
since 2002.
    Mr. Sweetin. That's correct.
    Mr. Souder. In the EPIC statistics, which we'll talk about 
locally, have you seen a shifting in--does it appear that 
they'll be lots of labs in one area; they'll go down, but 
another area will pick up, and that what we're seeing is the--
in other words, were these labs in basically the same counties, 
or do you have any idea of that?
    Mr. Sweetin. If you look at the statistics by county, which 
we can provide to you for Colorado, there seems to be several 
counties that stand out in terms of the numbers. Denver County, 
El Paso County, I believe Adams County, and I believe one of 
the northern counties--I believe it's Weld County.
    I can provide that as a breakdown. But in reference to your 
question about reductions in areas and then increased labs in 
the other area, I have not seen that in this region. Typically 
what we've seen is reductions in small toxic labs that pretty 
much occur across the board on a percentage basis--that it's 
rare that we would see an increase in a certain area.
    We really just haven't see that. So the reductions have 
pretty much been across the board.
    Mr. Souder. That--I'll have some followup questions with 
that with the local prosecutors, whether that's some--that 
we've locked the people up--whether we've actually stopped the 
labs and changed the attitudes as opposed to putting them in 
jail.
    That--the--a second question is that--have you--are these 
statistics similar in Wyoming, Utah and Montana?
    Mr. Sweetin. I believe they are. As far as the reductions, 
they are, certainly.
    Mr. Souder. Do you--has--what we tend to see around the 
country is that most of the labs--they like to operate in more 
rural areas, because it's harder to smell them; it's harder to 
be detected. And often, they start in national forests, which 
is why--happened heavily in California, Oregon and Washington.
    That pattern--is that why the--most of the counties you 
named--since I don't have a total geographical understanding, 
though I have a rough understanding of where those counties 
were--they seem to be in--near national forests.
    Mr. Sweetin. Well, I've never seen that correlation made. 
I--looking at the counties, my assumption has always been that 
it's population centers throughout Colorado. If you look at El 
Paso County down toward Colorado Springs, you look at Denver 
County and then in the northern region up here that is seeing 
major growth--I think that's one of the factors that 
contributes to it.
    I think the other thing is the education. People now know 
what a methamphetamine laboratory is, whereas, you know, 5, 10 
years ago, people may have been encountering methamphetamine 
laboratories and not known it. So I think the added pressure of 
some of these jurisdictions in enforcement as well has caused 
some of those lab seizures.
    Mr. Souder. And now, in talking about the labs again, not 
crystal meth, the--you're saying you're finding these in 
cities.
    Mr. Sweetin. Well, in--Denver County has statistics on 
seizures. But we're finding them pretty much everywhere. But I 
would say by and large, these would be in the suburban or more 
rural areas throughout the State.
    Mr. Souder. The examples you have here are the Wind River 
Indian Reservation, Grand Junction, Cheyenne-based ring, 
Boulder County. If--and here in Loveland. If you have examples 
of clandestine labs in a more major urban area--we're seeing 
some in motels where they'll take a wing--in Dayton, OH, the 
first one was a string of seven houses.
    Because of the smell detected, generally speaking, we 
haven't seen these in urbanized or even suburban settings. I'd 
be interested if you have some specific examples of where the 
cooking was done in some urban areas.
    Mr. Sweetin. Well, I'll be happy to check that and submit 
that. I'll see what we can come up with in the cities.
    Mr. Souder. That would be a change in pattern, which we're 
starting to see--Minneapolis/St. Paul. But a lot of that moves 
to crystal meth.
    Now, in the Indian reservations--we had testimony from the 
U.S. attorney for northern Minnesota, who had the northern 
Indian nations--says that meth has been a bigger problem in the 
Indian reservations now than alcohol. Have you seen that or----
    Mr. Sweetin. Well, we've been meeting with our Native 
American law enforcement and tribal leaders for about the last 
2 years on this issue. I have not seen that reported, nor have 
they reported to me that this has eclipsed alcohol.
    I will say that it is identified by most of them as their 
biggest problem. Throughout our region, the reservations that 
we cover, methamphetamine is seen as the No. 1 problem.
    In a recent case that you may be aware of, it is our--based 
on our investigation, the traffickers actually--the Mexican 
traffickers actually identified a Native American reservation 
and went there and purposely used what they thought were 
jurisdictional confusion to help expand their retail market.
    So when you look at these--I will tell you that small toxic 
labs--they've been very limited on the reservations that I 
cover, but methamphetamine itself that's trafficked in by 
Mexican groups is extensive, and they would identify that as 
their biggest problem.
    Mr. Souder. Before I yield to Congressman Musgrave, I just 
spent the last 2 days on the southwest border, in Texas 1 day 
and New Mexico the other. And they're not getting any crystal 
meth. And we also met with ICE, and they're not getting any 
crystal meth.
    And I'm trying to figure out--and we'll pursue this at the 
national level. But I wonder--we have received testimony in 
every hearing that 67 to 80 percent--now in the current 
testimony--that we get is made in superlabs increasingly from 
Mexico. Then why aren't we getting it?
    Mr. Sweetin. Well, I'm not sure why that is. And I'm--as 
you're asking the question, I'm trying to search back and 
determine in our region what are we seeing. We're seeing a lot 
of meth that isn't crystal meth in this region. My thought 
would be that there would be superlabs creating methamphetamine 
that was not crystal meth.
    Mr. Souder. OK. I shouldn't have used crystal meth. They're 
not getting any meth at the border that--we're claiming there's 
an increase in non-mom-and-pop labs, and it's coming across the 
Mexican border. But they're not getting anything.
    At Neely's Crossing, where I was the other day, they had a 
load of 10,000 pounds of marijuana that they only got part of. 
Most of it got away. They're getting 55 pounds of heroin the 
other day--but no meth.
    That--are we sure we don't have some other kind of lab 
construct working inside the United States? I mean, this is 
really disturbing if this is holding--unless it's all moving 
over to Tijuana in the California side. Because if it's not 
coming across the other three States--we've got some kind of 
mismatch that we've got to figure out here, because we see the 
labs dropping, meth use not dropping, meth use increasing at 
emergency rooms, and a transference of this kind of usage, but 
we don't seem to have a handle where it's coming from.
    Mr. Sweetin. Well, I don't know--I'm not a border expert, 
and DEA doesn't do really border interdiction per se along the 
border. But I will tell you, based on the investigations--I 
believe some of those are cited in my written statement--we 
are, in fact, seeing--now, mind you, these are poly drug 
groups. These are groups that had inroads into this region 
before meth became the commodity.
    But we are, in fact, seeing strong, well-funded Mexican 
drug trafficking organizations moving methamphetamine from 
Mexico into the United States.
    Mr. Souder. So when you talk to them, they say this came 
across. Would you identify what--when you take down a group, do 
you ask them what border it crossed at?
    Mr. Sweetin. We--in some cases, we're able to determine 
where it crossed. In most of the cases that we're working, we 
work them in conjunction with the Mexican authorities so that 
it's obvious that the drug is beginning in Mexico. Some cases 
we never know.
    But there are cases where we can determine pretty sure that 
it's coming across the border and which border crossing it's 
coming across.
    Mr. Souder. And the amount of pounds in meth--would you say 
it's more when they're moving this in a group? Apparently the 
quantities are less than marijuana. The quantities are less 
than cocaine. Is that correct?
    Mr. Sweetin. It's certainly been our experience in this 
region that you would typically find--there's no typical 
seizure, but most of what we're seeing is movement across the 
highway system, the interstate highway system, which provides a 
great access up I25 into this region.
    So when you look at seizures made in that atmosphere, 
oftentimes you are seeing a mix. You're seeing typically 
cocaine and some methamphetamine. But the amounts of 
methamphetamine by volume do tend to be, by and large, less 
than the other drugs we're encountering.
    Mr. Souder. Because one of the questions is are they moving 
this on individuals, because the price is high and you don't 
necessarily need a dump truck with 10,000 pounds in it that--
are they moving it on individuals, and then those individuals 
may be picked up as part of even a human trafficking group--
consolidated it--is a decent load.
    Because this area probably has a pattern mostly coming 
through El Paso or straight north as a major trafficking group, 
possibly as far over as Laredo, maybe as far as Nogales. It's 
not likely to go far west up in--I'm not saying it doesn't, 
because it moves depending on the trafficking organization, but 
I would assume most of your trafficking is coming fairly 
straight north and south.
    And I just spent 2 days with them, and they don't have any 
busts. And they're trying to figure out where it is, because if 
it's moving in a different way, it might suggest more pat-down 
strategies or more things like heroin swallowers at airports. 
Because there's a disconnect. Any thoughts on----
    Mr. Sweetin. Well, I agree with you. I--you know, we 
believe, based on the cases we see, that I25 north/south 
corridor is the primary route. So the assumption is that it's 
coming across at that port of entry.
    Have we ever established in numerous cases that's a port of 
entry? We have not. Really, that hasn't been our focus. Our 
focus has been trying to get back to the Mexican ownership of 
those narcotics.
    But again, our intelligence here and our cases suggest that 
clearly this is coming across the southwest border somewhere. A 
lot of our interdiction efforts are focused on--and that of our 
counterparts--focus on that corridor, the I25 corridor, because 
I25 is a perfect highway to lead you to numerous major east/
west interstates.
    Where we sit in the traffic is that a lot of that 
contraband comes to this region, and then it's moved further 
east. So most of that methamphetamine that comes through here 
isn't bound for here. It's bound for places east of here.
    Mr. Souder. There is a theory, of which I am one possible 
proponent, that based on what's happening in the midwest and in 
Georgia, that it's coming from Canada and the northwest, and 
that the Mexican trafficking groups we're working with may have 
ties. It may be coming in the swapping with the B.C. bud and 
cocaine and out of Yakima.
    If you watch for that trend, if you start to see any of the 
Yakima type things--we may have a big trading zone up there, 
and we may be--we got--40 percent of the known meth in the 
United States was a DEA bust in Detroit at one point.
    It may be coming a different way, and we've got our focus 
wrong, and we need some kind of looking at the trafficking 
patterns too, so we don't make false assumptions. Have you 
heard anything coming from----
    Mr. Sweetin. We've actually looked at that as a probable 
area, just based on pressure placed at the southwest border. We 
have not seen that. We have had several sporadic cases of drug 
trading in the northwest. We believe it was actually coke for 
B.C. bud marijuana. But in terms of meth, I'm not aware of any 
investigation that has shown that.
    But I will tell you that we are--we do see the link with 
the Yakima region, and we're constantly looking. I also cover 
Montana as my area of responsibility. So the northern border is 
seen as an issue, and we do keep a close eye on it, but we have 
not seen that yet.
    Mr. Souder. Thank you.
    Mrs. Musgrave. Thank you, Mr. Chairman.
    Mr. Sweetin, I too am mystified by the--you know, we're 
told that possibly 80 percent of the drugs come from the 
southern border, and I don't understand why we don't have--you 
know, I was in El Paso. I talked to individuals about what 
happened at Neely's Crossing and talked to local law 
enforcement there--and what is going on right there at our 
southern border.
    And their--you know, the crime rate is low in El Paso. And 
I talk to Federal law enforcement folks, they say, Well, what's 
happening? What--are these drugs coming across the border, and 
are these people getting into our country with them without 
being apprehended?
    I am mystified by, you know, what we hear about the 
southern border and then how little methamphetamine has been 
seized. So I don't understand that either.
    I guess what we could move on to is how effective have 
these State laws--you know, now that we have in over 30 days--
in regard to the sale of over-the-counter medications that are 
used to make meth--how effective have these things been?
    I had breakfast with the mayor of Greeley this morning, Tom 
Selders, talking about, you know, how the city council there 
has passed restrictions on the sale of these. What effect does 
this really have?
    Mr. Sweetin. Well, if you look at the decline in small 
toxic labs over the last 5 to 8 years throughout the west, I 
think most of the credit goes to chemical control, that the 
pressure that creates--the answer to your question--it's been 
very effective in--certainly in this region.
    When States initially started passing these laws, the law 
enforcement counterparts would say, right now, the best we can 
do is move them to another State by passing this law. As other 
States come on line, I would say that the pressure is quite 
impressive, and that's why we're now looking at the shift that 
the chairman spoke about in his opening.
    The shift is now what we need to be looking at and worrying 
about with the majority of our time is the Mexican connection.
    So I'd say that the chemical--all chemical control, when 
it's factored in--the chemical control on shipment of 
precursors, large bulk shipments, the gray market, those things 
combined--we don't know which one had more than the other.
    But I will tell you that chemical control has had a very 
large effect on this region in terms of making small toxic labs 
even more difficult to operate.
    Mrs. Musgrave. The chairman alluded to Internet sales of 
these precursors. Could you comment on that? What do you see in 
regard to Internet purchases of these things?
    Mr. Sweetin. We have numerous Internet cases. Our--I have 
not seen Internet cases in this region for purchase of 
pseudoephedrine or ephedrine or phenylpropanolamine. We see 
primarily diversion-related cases on diversion of illicit 
painkillers.
    But we have not seen Internet investigations where people 
are ordering these--those three chemicals online in this 
region.
    Mrs. Musgrave. I think that concludes----
    Mr. Souder. OK. I have some followup. How would you find 
it? In other words, an individual orders from a Canadian 
pharmacy--what they assume's a Canadian pharmacy--about--the 
majority of which are actually in Mexico masquerading as 
Canadian pharmacies.
    All you have to do is go to the border and see all the 
pharmacies--that they order, you know, 20 bottles. Would you--
is anybody even monitoring that?
    Mr. Sweetin. Well, it depends on--now, how we would find it 
would depend on where the lab was. If----
    Mr. Souder. It would have to almost be a superlab, wouldn't 
it?
    Mr. Sweetin. Well, it--I don't know if necessarily it 
would.
    Mr. Souder. Oh, I see. You're saying if you see an uptick 
in local labs and you don't find the names on the registers, 
then they probably would be an Internet. Would that be a safe 
assumption?
    Mr. Sweetin. Yes, sir. And I think the other thing is a lot 
of the work we've done on identifying gray market and shady 
chemical suppliers starts at the lab and works backward. 
Because, you know, if you look at bulk ordering of 
pseudoephedrine or ephedrine, it's very obvious when you go to 
a lab scene that wasn't a blister-pack guy sitting around 
popping pills out of blister packs.
    You have containers. Containers are trackable. And we've 
done some great work on--some of the best cases that have been 
done in the country by tracking those chemicals back to where 
they came from. So that would be the first step. It would be 
very rare that we would start at the Internet end.
    We would actually have to--if the lab was occurring in 
Mexico, then working with them, we would track that lab. But 
one of the overall difficulties with these Internet sites is 
they could be located anywhere. The supplier can be in one 
State. And we're seeing this with our other Internet 
investigations.
    The broker can be in one State. The actual person that 
fills the order can be in another nation. So the Internet's 
made that a little bit more difficult.
    Mrs. Musgrave. Mr. Chairman, if I may, coming from an 
agricultural area, can you address the anhydrous ammonia? Do 
you see a great deal of theft with chemicals like that?
    Mr. Sweetin. We were receiving quite a few reports at one 
time. We don't hear a lot of reports any more. I'm not sure 
whether--first of all, reports of anhydrous theft--our theory 
is that there's a lot more thefts than we ever know about, 
based on the methods of theft.
    I think the education has done a great job with that. We 
don't--you know, a lot of people that--a lot of the 
agricultural community is now aware of the fact that what they 
once thought was a fairly innocuous chemical used as a 
fertilizer is now a necessary component to some methods of 
methamphetamine.
    So we don't hear as much about that, about anhydrous. But 
our assumption is--you know, many of the labs that we find--
there is anhydrous involved that we assume has been stolen from 
some agricultural setting.
    Mrs. Musgrave. What about methods of theft? Could you 
address that?
    Mr. Sweetin. The typical methods of theft, depending on the 
region--in this region have been actual thefts from holdings 
tanks in rural environments. That's the predominant method--
would be some of the larger agricultural areas.
    And I obviously didn't grow up in the agricultural world, 
and I'm about to make that clear. An upbringing in the suburbs 
of D.C. But my understanding is that it's a fairly easy theft 
method if you can get to the storage facility in a farmer's 
field.
    And prior to this education, there was no safeguards on 
anhydrous. But I will tell you that the education of the 
agricultural committee seems to have had an effect, at least in 
terms of what we hear is being stolen.
    Mr. Souder. And you believe, based on the EPIC numbers, 
that what we're going to hear is that the number of people 
going to emergency rooms in this area with meth is down, and 
the number of people in drug courts with meth is down, and the 
number of people in prisons are down, or not.
    Mr. Sweetin. I don't know if you'll hear that. I'd be 
interested to see what you hear. What my point was is that the 
actual small toxic lab situation is decreasing. In terms of 
meth use, I think you have some people here that can certainly 
answer that question, but I wouldn't predict that's what you'll 
hear.
    Mr. Souder. And--but you will predict that the number of 
people going to emergency rooms, the number of people going to 
prisons, the number of people in drug courts, the number of 
people in treatment due to lab arrests--that historically, 
almost all the people in prisons, drug courts, in the legal 
system have been from the labs, because they have to be picked 
up.
    They're blowing up their neighborhoods. They're endangering 
their families. They're--they--and so that's where the touch 
comes usually with local law enforcement. And the disconnect 
I'm having is the EPIC numbers with the actual medical 
reporting.
    Now, some of that could be people--judges are behaving 
different. I'm just wondering, because it's something we're 
having trouble reconciling. We believe that the association at 
counties is going to possibly report again that meth is their 
No. 1 local problem, that the drug courts seem to be rising as 
a percentage in meth.
    We heard last week in treatment that it's a rising 
category--and doesn't appear to be crystal meth or non-mom-and-
pop lab. And yet the administration position is it's a 
declining problem.
    Mr. Sweetin. Well, I'm not prepared to adopt what you said 
earlier, that there would be an automatic correlation between a 
reduction in small toxic labs and the problems affiliated with 
methamphetamine use. Methamphetamine use is--the people that 
are using methamphetamine--in recent cases that we've had, that 
methamphetamine use is at the street level.
    These are danger--you may see some of the articles and 
press clippings from the region where our task force in Grand 
Junction hand a shootout with a man in a bowling alley, and I 
think you may hear some more about that case in a minute.
    But that use would appear to people around it to be small 
toxic lab use, but by the time this methamphetamine makes it to 
the street, I will tell you that it's very hard to determine--
the assumption that it's obvious, even at the treatment level, 
to determine where that lab--that dope came from--I would say 
that would be very difficult, that it would be hard to make the 
correlation that as small toxic labs decrease and, you know, 
methamphetamine use continues--it just continues on smuggled 
methamphetamine--I'm not sure you're going to see that.
    Mr. Souder. OK. I wasn't saying they could identify it by 
the type of--to some degree, you can make some estimates based 
on purity and composition, but they're making it based on where 
they arrested them. In other words, they arrest the guy--I 
don't know the bowling-alley case, but if they arrest the guy 
in a bowling alley and they go to his house and they find a lab 
there, he obviously didn't get it from Mexico.
    Is one thing here--are the small--are the mom-and-pop nazi 
labs, all the--that mix--are they making more? In other words, 
are--is part of this they're declining in number, but they're 
getting bigger?
    Mr. Sweetin. I don't--I haven't seen any data to support 
that. Our--most of the labs that we see are not very 
sophisticated labs. They're very, they're low volume labs. 
They're really bad chemical operations, fortunately and 
unfortunately. They're more dangerous that way, but they're 
not--the yield is not very good.
    We're not seeing increased sophistication with these labs. 
We're seeing a reduction in them overall, but we're not seeing 
them look any better than they did several years ago.
    Mr. Souder. I don't want--the one comment I want to make 
with this--and I'm not making an accusation. I'm saying 
something that we're going to have to deal with as a practical 
matter and why DEA and our Federal agencies need to look at the 
nexus that I was just discussing as we go through this 
process--because in my own district--Indiana was fifth highest 
in the number of labs--we're seeing a drop in labs but an 
increase in the pressures. And it's hard to sort through. And 
we need an explanation for that.
    Because one of the things that I'm worried about 
politically in a sense--of a disconnect between the Federal and 
the State and local--is that the Federal Government has 
downplayed from the beginning, with the notable exception of 
DEA--because you were involved in the cleanup--and quite 
frankly, when I've followed through DEA over the years is the 
grassroots DEA agents knew there was more of a problem than the 
Washington headquarters did.
    Director Tandy started to correct that. Director Tandy, in 
her meetings with other government agencies that were still 
poo-pooing the meth problem, argued internally--don't take this 
personally at DEA, but there is a vested interest in the 
Federal Government to prove that it's Mexican organizations, 
because then they can propose cutting the Byrne grants, cutting 
the HIDTA programs, cutting the local and State law enforcement 
task forces, because now it's a Federal problem we have to deal 
with.
    And there's a disconnect if we can't establish how the 
transfer is occurring and what's happening at the local level, 
because it seems to be working in the self interest of those 
who are making the argument--and that--I'm not arguing that the 
labs aren't dropping. We see the labs dropping.
    And October 1st, when we do the national pseudoephedrine 
regulation, presumably we're going to see more dropping. But 
when you can't find it at the border and you can't find it--
whether it's on the Internet, and we're seeing the problems at 
the local level--the pressure is increasing. People want an 
explanation.
    And I know that's not the normal way we do this. But 
because of the history of how this drug epidemic has grown and 
the battle that's occurred around it, the Federal Government 
has more explaining to do than just making assertions. And 
that's the challenge.
    Mr. Sweetin. Well, I would just tell you it's in DEA's best 
interest to look at that and to make sure that we are using the 
correct numbers and the correct correlation. So I will tell you 
it is important to us as part of the administration and even to 
us in the field to make sure that we are seeing it right. So 
I'm sure those comments will be passed up to my bosses.
    Mrs. Musgrave. I just would like to ask you, in conclusion, 
how successful Operation Wildfire was.
    Mr. Sweetin. Well, nationally, Operation Wildfire was very 
successful. One of the things that was most successful about 
Operation Wildfire, if you go beyond the obvious statistical 
successes, was that it was a--you know, we've always prided 
ourselves in our ability to cooperate--particularly DEA has--
that we don't look at cooperation as a luxury. We look at it as 
a necessity.
    And what Wildfire did was it--across the country on--in one 
time window, we all focused on focused methamphetamine 
enforcement with our counterparts. So I--from my standpoint, I 
see it successful in a couple ways.
    It was a great success against those people that are moving 
methamphetamine to our kids and to our communities. But more 
so, from my standpoint, it was a success in that what we found 
and what we really highlighted, I think, during that period of 
time was that if we all focus on something--you know, if you 
look at the post September 11th days, we all focused on certain 
things. If you focus on a problem, you stop other things that 
you're doing, which is ultimately what we do when we focus on 
those things, as do our counterparts--I think you have great 
success.
    And I think it was a credit really to our counterparts, 
who--you know, they have--DEA's single mission--I have one 
primary thing that I have to do. Some of the speakers you're 
going to hear from have thousands of missions. And so when I go 
to them and I say, we want to do this; we think it's good for 
the country, and they do it, that's a good example of what we 
can do when we cooperate. So I think it was very successful.
    Mrs. Musgrave. Thank you.
    Mr. Souder. Well, thank you very much for your testimony, 
and we'll try not to give too many written questions, so we can 
get a timely response. Thank you very much.
    Mr. Sweetin. Thank you.
    Mr. Souder. If we can get the second table set up so we can 
get all the witnesses for the second panel.
    [Recess.]
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    I appreciate you all coming. I'm looking forward to your 
testimony. And we'll start with--let me make sure I have our--
that the order that they're on the--Mr. Abrahamson, start 
first.

STATEMENTS OF LARRY ABRAHAMSON, DISTRICT ATTORNEY, 8TH JUDICIAL 
  DISTRICT; KEN BUCK, DISTRICT ATTORNEY FOR THE 19TH JUDICIAL 
 DISTRICT; JOHN COOKE, SHERIFF, WELD COUNTY; LIEUTENANT CRAIG 
DODD, COMMANDER, LARIMER COUNTY DRUG TASK FORCE; JANET ROWLAND, 
COMMISSIONER, MESA COUNTY; BOB WATSON, DISTRICT ATTORNEY, 13TH 
          JUDICIAL DISTRICT; AND MS. DONITA DAVENPORT

                 STATEMENT OF LARRY ABRAHAMSON

    Mr. Abrahamson. Thank you, Chairman Souder, Congresswoman 
Musgrave. Thank you for the opportunity to testify this morning 
in an issue that is of great concern to communities in 
Colorado. This issue of methamphetamine is an epidemic in 
Colorado and is truly one that we are seeing.
    My name is Larry Abrahamson. I'm the district attorney for 
the 8th judicial district, which includes both Jackson and 
Larimer Counties. And I've been prosecuting in this 
jurisdiction for over 34 years.
    Some of my comments had--were directly in relation to some 
of your comments earlier about methamphetamine and the nature 
of the drug and its effect on the Nation as well as our 
community. So I'm not going to reiterate those things that you 
have already addressed as areas that you have full knowledge 
of.
    So I'm going to move on to some areas of particular concern 
to our community and some statistics that we're seeing that 
affect that we do. Obviously, the cost to communities 
throughout the country is huge.
    Vanderbilt Burn Center reported in Newsweek in August 2005 
in an article that they took on a $5 to $10 million 
uncompensated burden associated with meth burns. They reported 
that one third of all burns they treated were from meth.
    Mississippi Firefighters Memorial Burn Center suspended new 
admissions in May 2005 and may need to shut down permanently, 
according to their report. Part of the reason they indicated 
was that the financial strain in treating meth burns was more 
than they could handle.
    According to the adult drug courts that we have in Larimer 
County, 85 percent of the adult offenders listed 
methamphetamine as their drug of choice in 2004. This is a 34 
percent increase over the previous 3 years. In 2005, 28 percent 
of juveniles listed meth as their drug of choice. In 2000, no 
one in the juvenile court--juvenile drug court listed 
methamphetamine as a drug of choice.
    Meth is the primary drug threat in the State, and it is 
readily available in most population areas. Most 
methamphetamine available in Colorado, as you had indicated, is 
produced from Mexican cartels and criminal groups in California 
and Arizona.
    As a result of these active groups, the U.S. Customs 
Service reports that Federal meth incarcerations in Colorado is 
greatly ahead of the national average. I believe it's 30 
percent in Colorado--were Federal meth incarcerations, compared 
to the national average of 14 percent.
    We cannot allow ourselves to play a catchup game when it 
comes to a drug that is insidious as meth. Once the community 
falls behind the drug problem, it is difficult if not possible 
to again gain the upper hand. We must be proactive, and we must 
be relentless.
    One of the most concerning threats in our community is the 
effect it's having on children. 256 meth-related cases were 
investigated by child protection services in Larimer County. 
Also during the first 9 months of 2005, 52 children were 
actually placed outside of their homes directly because of the 
meth connection they had in that particular home with their 
parents.
    Child protection received 388 referrals in which it was 
alleged that children were living in homes where their parents 
used methamphetamine. Sixty-five dependency and neglect 
petitions were filed in district court, and these were as a 
result of meth use of parents.
    The government's primary role has historically been public 
safety, and we need to continue to remind ourselves that is a 
function that is paramount to all other functions when we look 
at how our tax dollars are being spent. When citizens do not 
feel safe in their own neighborhoods, it makes little 
difference whether the jogging trails are well maintained or 
the opera houses are in operation.
    Although these are important to a growing and healthy 
community, they all must be put in perspective when 
prioritizing public needs. Public safety must be the primary 
function of government, and it must occupy the top spot on our 
priority list.
    The battle not only requires financial resources. It also 
involves legislative authorization for communities and law 
enforcements to act.
    And we need your help and support. And I have listed in the 
statement that I presented to you eight different ways that we 
feel that the Federal Government can be of assistance to local 
agencies when it comes to attacking the meth problem.
    The first one I mentioned was the Federal financial support 
for drug courts. Drug courts have proven to be very effective 
and one of the most effective ways of dealing with the meth 
problem after a person has been charged and is before--in the 
court system. It's my understanding that some of the funds have 
been cut from that program this year, and that needs to be 
reexamined.
    We need to establish Federal and local partnerships to 
increase community education on the dangers of meth and the 
effective methods of intervention.
    We need to have a stronger DEA and Federal law enforcement 
intervention and coordination with local sheriffs, police and 
drug task forces.
    Legislation for financially supported drug enforcement 
through fines, fees and forfeiture actions taken against drug 
dealers must be examined.
    Stronger border and Coast Guard support to control the 
illegal flow of drugs into this country, which has been 
addressed and commented on by the earlier speaker.
    Sanctions against countries who are not actively trying to 
control the cartels that control international drug traffic.
    Incentives to encourage States and local governments to 
make public safety their primary concern.
    And the continuation of support to encourage the earmarking 
of funds to assist local governments with criminal justice and 
public safety concerns.
    And again, I thank Congresswoman Musgrave for the efforts 
that she has put forward in that regard.
    Thank you for the opportunity to speak to you today. If you 
have any questions, I'd be happy to answer them.
    [The prepared statement of Mr. Abrahamson follows:]

    [GRAPHIC] [TIFF OMITTED] T4235.015
    
    [GRAPHIC] [TIFF OMITTED] T4235.016
    
    [GRAPHIC] [TIFF OMITTED] T4235.017
    
    [GRAPHIC] [TIFF OMITTED] T4235.018
    
    Mr. Souder. Thank you for being one of the first witnesses 
to ever publicly endorse earmarks.
    Next, Mr. Buck.

                     STATEMENT OF KEN BUCK

    Mr. Buck. Thank you, Mr. Chairman, for this opportunity. I 
heard your questions earlier, and I'd like to allow others the 
opportunity to talk and maybe just address a few of the answers 
to some of the questions that you had.
    Meth--I am the Weld County district attorney of the 19th 
judicial district, and meth is truly a human tragedy in our 
area. It is not just a human tragedy for the addicts whose 
lives are often ruined. It is also a human tragedy for the 
families of the addicts.
    And Donita Davenport from the Christian organization--
you'll hear from her later. But there are--there is so much 
need in our community for support groups because of what this 
terrible drug has done.
    It's also had an adverse effect on employers because of 
lost time. And the economy is suffering in Weld County as a 
result of meth.
    And the victims of crime--not just the direct impact, but 
the indirect impact of meth--the folks that have had their 
identities stolen and used to take money from them and banks 
and other organizations, the folks that have had their cars 
stolen, folks that have had other things stolen so that these 
meth addicts who are so dangerous and so needy can get the 
money that they need for their addiction.
    There are several things that I think the Federal 
Government can do to help Weld County and to help others in 
America. The first thing is to shut down the Federal border. It 
doesn't surprise me at all that the Federal Government hasn't 
gotten much meth across the southern border recently.
    If 12 million people, most of whom can cross the southern 
border in this country--I'm sure that folks can figure out how 
to get packages of methamphetamine into this country. And that 
is--that effort has to be redoubled to make sure that people 
and drugs are not coming across that border.
    There are ways that the Federal Government can help prevent 
identity theft, which is a source of income for meth addicts. 
My son recently turned 18, and I went down to the post office 
with him and got this pamphlet so that he could register for 
the selective service.
    In this pamphlet, there is a postcard, and on the back of 
the postcard he is required to fill out his date of birth, his 
Social Security number, and his name and address, and then to 
drop this in a post office box. There will be probably 10 to 15 
people that have come into contact with this card between the 
time he puts it in the post office box and the time it reaches 
the selective service.
    I've talked to a number of senior groups, and in those 
senior groups, I have heard consistently how they are concerned 
about their Medicare cards, because they are told that they 
have to keep those Medicare cards in their purse or on their 
person. If something happens to them and they're brought to the 
emergency room, somebody will be able to find out that 
information.
    Well, on those Medicare cards, their name, their Social 
Security number, and their date of birth appear. And they're 
very concerned about that. If their purse is stolen, their 
identity is stolen.
    There are a number of Federal forms that I think the 
Federal Government should examine--ways to try to reduce the 
identity theft.
    You mentioned efforts to prevent especially young people 
from getting involved in meth. One of the county commissioners 
from Weld County, Glen Vaad is here, and Mr. Vaad is heading up 
a project in Weld County that is similar to the Montana Meth 
Project. And it has been very successful in Montana.
    And Commissioner Vaad is trying to raise private funds to 
help with that kind of prevention effort. It is a multi-tiered 
public information effort aimed at young people so that those 
young people do not start in on that methamphetamine route, 
because once they start, the urge is so great that they often 
cannot stop until they've hit bottom.
    Those are some of the things that I think the Federal 
Government could do. And I again appreciate very much the 
opportunity to address you.
    [The prepared statement of Mr. Buck follows:]

    [GRAPHIC] [TIFF OMITTED] T4235.019
    
    [GRAPHIC] [TIFF OMITTED] T4235.020
    
    Mr. Souder. Thank you.
    Can I ask each of the witnesses, just since I'm not from 
here--I see on the testimony of Mr. Abrahamson that you're from 
Fort Collins. Are we in Weld County?
    Mr. Buck. You're in Larimer County.
    Mr. Souder. Larimer County. Where is Weld County?
    Mr. Buck. Weld County is just right to the west of----
    Mr. Souder. OK. If there are other counties that you refer 
to or have in your testimony, would you kind of give me a brief 
idea of where I'm at?
    Sheriff Cooke.

                    STATEMENT OF JOHN COOKE

    Mr. Cooke. Good morning. Thank you, Mr. Chairman and 
Congressman Musgrave, for this opportunity to testify. I am the 
sheriff of Weld County, the county directly to the east, 
about--we start about 6 miles due east of here.
    What you've already heard, you know, obviously and know--
meth is a very serious and complex issue, and it's going to 
take long strategies to figure out what to do. Many of the 
issues--enforcement issues--you've already heard that the meth 
labs are down, and that's true in Weld County.
    In 2003, we had 16 labs that we busted. In 2004, we had 
six, and in 2005, we had six. And so far this year, we've only 
had two. So it is a noticeable decrease. And we attribute that 
to several things. One is the precursors being behind the 
counters, so people can't just go buy unlimited amounts.
    The other is the prosecution and stiff penalties for 
small--even a small amount of manufacturing. And it--these 
reasons--it's--I believe it's easier to import the drugs across 
and traffic the drugs across the border.
    And then a final--another reason is the education, as the 
DEA mentioned. We are educating a lot of people. And Weld 
County is receiving a--did receive a cost grant where we're 
educating many people in the community what a lab looks like 
and what to do when they find one.
    Even though the labs have been decreasing, there still is a 
major impact on law enforcement. In Weld County, four out of 
the last five homicides we investigated had direct ties to 
methamphetamine.
    A Weld County detective recently mentioned to me that 50 
percent of all property crimes are attributed directly to 
methamphetamine, property crimes such as burglary, theft, auto 
thefts, auto prowls. And about 90 percent of other property 
crimes such as bed checks, check washing and forgeries are a 
direct result of methamphetamine.
    Some of the other issues are the manufacturing issues. And 
even though the numbers of labs have decreased, they still pose 
a great threat to the citizens of Weld County and to citizens 
of any jurisdiction. They usually have or contain two 
components, and that is how they obtain the chemicals.
    Since it's illegal to obviously--to produce meth, they have 
to steal what they need, like the anhydrous ammonia that 
Congresswoman Musgrave mentioned. We had a problem with that 
several years ago.
    The other problem is the way they cook it and the poisonous 
gasses that they collect. And they collect it in what they call 
death bags. And these death bags are thrown anywhere that's 
convenient for them. And it contains, like I said, these 
poisonous gasses.
    And so it has a direct impact and dangers to people like 
sanitation workers, to public road workers, to children walking 
to school. They can come across these death bags. And 
basically, it is a toxic waste site when one of these bags are 
distributed out to the public.
    Another issue is importation issues. There has been a 
significant shift in production from local sources to foreign 
sources, namely Mexico. Evidence of this is directly reflected 
by the cost of an ounce of methamphetamine steadily increasing 
the further you are from the Mexican border or any large 
immigrant population or known trafficking corridor.
    Also, lack of raw materials in the United States and 
readily available materials in Mexico, along with harsher 
sentences for the production of even small quantities of 
methamphetamine in this country, have forced production from 
the United States to Mexico.
    With a non-secure border, methamphetamine and other drugs 
will continue to flow into the United States, I believe, at 
alarming proportions.
    Another issue that I find is jail issues. Weld County has 
400 beds for its inmates, yet we have over 600 inmates 
incarcerated, so we're at 200 over what we are allowed.
    Our biggest increase are female offenders. They are the 
fastest growing population in Weld County. In 2004, male inmate 
admittance decreased by 2 percent while increasing over 9 
percent for female. Again, in 2005, while there was a 4.2 
increase in overall admissions into the jail, there was an 8.9 
percent increase in female population.
    And while male inmates have increased their level of 
violence, females have not. The majority of the female crimes 
are property crimes and drug crimes. They commit the property 
crimes to get the money for their meth. A recent survey of the 
females housed at the Weld County jail revealed that offenders 
who admitted using any kind of drug 24 hours before their 
arrest--85 percent of them used methamphetamine.
    In many instances, the drug has become a revolving door for 
the women. Ninety percent of the women surveyed had been in 
jail before, and 77 women surveyed represented 379 separate 
incarceration periods. That's five separate incarcerations for 
each woman.
    Incarcerating women significantly impacts all of society. 
The women mentioned in the survey are mothers to 183 children, 
and that is more than 2 children per inmate; 83 percent of 
those children were below the age of 18, and 59 percent of the 
children--below the age of 12.
    A little more than 6 percent of the children are in the 
custody of Social Services. That leaves 94 percent of the 
children to be raised by other family members other than the 
mother or father, and--which--probably the grandparents.
    There is a shortage of treatment facilities. There is a 6- 
to 8-week waiting period for meth users to receive treatment in 
local facilities.
    And so in conclusion, I'd just like to say that many things 
can be done. You've heard about them. I believe getting control 
or securing the border--continue efforts, supporting law 
enforcement--from the Federal Government, continuing treatment 
or increasing the treatment, and increasing the budget for DEA 
to assist local agencies. Thank you.
    [The prepared statement of Mr. Cooke follows:]

    [GRAPHIC] [TIFF OMITTED] T4235.021
    
    [GRAPHIC] [TIFF OMITTED] T4235.022
    
    [GRAPHIC] [TIFF OMITTED] T4235.023
    
    Mr. Souder. Thank you.
    Lieutenant Dodd is the commander of the Larimer County Drug 
Task Force. Thank you.

                    STATEMENT OF CRAIG DODD

    Mr. Dodd. Good morning. Thank you for allowing me to 
testify here today. It's indeed an honor. My name is Craig 
Dodd.
    I am commander of the Larimer County Drug Task Force. The 
intent of my testimony is to share with you my observations as 
a law enforcement professional for the past 22 years, as well 
as provide some insight as to the scope of the problem here in 
Larimer County, and to provide recommendations that will enable 
you--enable us to have greater impact on the issue.
    Mr. Souder. Can you check to see if the mic--is the mic on? 
Or maybe you can pull it a little closer.
    Mr. Dodd. There we go. Is that better? Sorry about that.
    The Larimer County Drug Task Force is comprised of 17 full-
time employees, 14 of which are drug investigations, from four 
Larimer County law enforcement agencies. We serve a population 
of 300,000--nearly 300,000 people spread over 2,640 square 
miles.
    My first experiences as a drug--with drug crime came in the 
late 1980's as a narcotics detective. During this time, meth 
existed. However, it was isolated to a small group of outlaw 
motorcycle gang members. In the 1980's, the threat and the 
impact on the quality of life to our citizens was minimal and 
quickly eliminated.
    Today it's much different. The threat is much greater and 
much different. Conservatively, 70 percent of the meth coming 
into our community is coming directly or indirectly from 
Mexico.
    That question has come up a couple of times. And how we--
why we believe it is coming from Mexico is through our 
intelligence sharing with the Federal Government, with DEA 
specifically. We'll get information from drug dealers that are 
here locally that'll say that the drugs are coming from Mexico.
    We'll get information about vehicles that are going down to 
bring the drugs back. And we can confirm those--that 
information through border crossings. So that's part of the 
reason why we believe it's coming directly from Mexico.
    In the late 1980's, we rarely encountered methamphetamine 
in amounts greater than 1 ounce. Today, when we're dealing with 
drug dealers, 1 ounce is the minimum amount of methamphetamine 
that we're purchasing and seeing.
    In 2005, the Larimer County Drug Task Force seized 12.9 
pounds of methamphetamine from drug dealers here locally, which 
is almost double what we had seized from--in 2003 and in 2004.
    The community impact of meth in Larimer County is 
significant, and it mirrors other communities. We are 
experiencing increases in violent crime, property crime, 
identity theft, all related to methamphetamine addiction. Due 
to the increase in meth-related crime, our judicial system has 
become overburdened, causing significant budget demands on 
governmental entities already struggling with budget 
shortfalls.
    The city of Fort Collins, of--who I work for, recently cut 
$4 million from its general fund budget, and in 2007, we'll 
have to cut an additional $6.8 million. Although I consider 
Larimer County communities safer than most, we're on the brink 
of losing ground to the meth issue because of a lack of 
personnel resources.
    Unfortunately, because of our emphasis and deployment of 
resources to target the sale and manufacture of meth, we're 
being overrun by what is considered a gateway to meth, 
marijuana.
    In 2005 alone, the Larimer County Drug Task Force seized 83 
pounds of high-grade or indoor-grown marijuana, 1,900 plants 
and assets totaling nearly three-quarters of a million dollars. 
Indoor-grown marijuana that's produced locally is being sold 
for approximately $4,500 per pound.
    From a law enforcement perspective, we must stay on stop of 
the meth and other local drug issues. Historically, Larimer 
County law enforcement has successfully forecasted and adjusted 
our resources to combat new crime issues. Gang presence is a 
perfect example of something that we addressed nearly a decade 
ago and have kept on top of.
    Larimer County is a model community in regards to creating 
and maintaining partnerships and collaboration with our 
community. Unfortunately, when resources are spread so thin, 
you tend to lose the creativity and the motivation to stay 
ahead of the game. We can't let that happen. It's much easier 
to keep up than to catch up.
    I have--there are several recommendations for your 
consideration that would assist us in maintaining or reducing 
meth-related issues in our community. Here are a few.
    The influx of meth from Mexico is increasing. And in 
response, we need assistance from the Federal Government to 
take greater control of our southern border in hopes of 
reducing the supply of meth and number of drug criminals 
entering our country.
    The inundation of meth on our judicial system has made it 
unrealistic to deal with this crime problem with a traditional 
approach. Putting all meth addicts in jail is no longer an 
affordable solution. We must approach this issue by making a 
concerted attempt to rehabilitate offenders. We need additional 
funding for treatment programs.
    We need to continue to increase communication and 
collaboration of local and Federal law enforcement so we are 
insuring that drug suspects and organizations are investigated 
and prosecuted at all levels. This can be accomplished by 
adding DEA assets to northern Colorado.
    When considering the distribution of State and Federal 
dollars, specifically grant-funding opportunities such as 
ONDCP, HIDTA, JAG/Byrne, consider increasing the moneys 
available to multi-jurisdictional drug task forces and other 
projects which directly impact the meth problem.
    Historically, drug task forces have been successful in 
addressing crime issues because of our multi-disciplinary and 
non-traditional approach. Thank you--thanks for allowing me to 
testify.
    [The prepared statement of Mr. Dodd follows:]

    [GRAPHIC] [TIFF OMITTED] T4235.024
    
    [GRAPHIC] [TIFF OMITTED] T4235.025
    
    Mr. Souder. Thank you.
    Next witness is Honorable Janet Rowland, Mesa County 
commissioner.
    Where is Mesa?

                   STATMENT OF JANET ROWLAND

    Ms. Rowland. Thank you for allowing me to speak today. We 
are actually about 300 miles southwest of here along the 
Colorado/Utah border. Our population is roughly 140,000, and 
our county seat is the city of Grand Junction.
    I am county commissioner. And prior to being elected, I 
worked for our local department of human services for 10 years 
and spent 3 of those years in child protection investigating 
allegations of abuse and neglect. So I'm pretty familiar with 
some of these issues.
    And I believe that to appropriately address our meth 
situation, we need to look at both the supply and demand side, 
and we need to focus our efforts on prevention, enforcement and 
treatment. And specifically, I believe that we should make our 
response based on facts and data and not anecdotal information.
    To that end, in Mesa County we conducted research over a 
course of 8 months. I have three copies that I will leave with 
you of our white paper. During that time, we interviewed 200 
inmates in our jail. We conducted five focus groups with 
current users, former users, at-risk users, family members of 
users.
    We look at 3 years of autopsies and data from law 
enforcement, the courts, the department of human services, and 
several other agencies. Those are all highlighted in here. I 
can tell you that 75 percent of our cases in child protection, 
most of whom are in foster care, are directly related to 
methamphetamine. Fifty percent of our inmates indicate that 
they were in possession of meth at the time that they were 
arrested, and nearly 80 percent of them report being high on 
meth when they were arrested.
    So based on that information and using a logic model, we 
developed a strategic plan that looked at enforcement, 
prevention and treatment. In the area of enforcement, we began 
to notice a revolving door. We had inmates who would bond out 
and commit two or three more crimes before they ever went to 
court for their initial crime. And so our DA, Pete Hautzinger, 
developed what we call the Fast Track program, which allows 
non-violent first and second offenders who are only in 
possession or use of meth to plead guilty and go into 
treatment.
    If they successfully complete treatment and stay clean and 
do not reoffend over 2 years, then those charges are dropped. 
That program has just started, and we will be monitoring it for 
its success.
    In the area of treatment, at the same time we were 
conducting this research, we were doing a criminal justice 
study for Mesa County, because we too had overcrowded jails. 
And what we learned from that study is that we ought to--needed 
to build a meth-treatment facility or a new jail pod. And we 
could build a meth-treatment facility for $3 million less than 
a jail pod and operate it at about half a million dollars less 
per year. We broke ground on that facility last month, and we 
hope to have that open by the first of next year.
    As county commissioner, one of the calls I get more than 
anything, more than barking dogs and my neighbor's junk, are 
family members who have adult children who are involved in meth 
who often have grandchildren who are involved, and they don't 
know what to do. So also in our treatment committee, we have 
developed some family support groups to help those individuals.
    I believe you are aware of the drug-endangered children 
efforts. In Mesa County, we are following State and national 
protocol to ensure that we have good connections between our 
law enforcement and our child protection agencies.
    And in the area of prevention, we are developing programs 
that are based again on evidence-based curriculum that will be 
used in both the classroom setting--as well as public education 
and marketing campaign.
    We know that the children most at risk of using meth are 
those that we have--a captive audience. They are in foster 
care. And so we are developing support groups, education groups 
for those children, treatment programs, as well as tool kits 
for the foster care parents that work with them daily.
    As you consider what the Federal Government can do to help 
stop this epidemic, I would ask that you look at it from a 
supply and demand side and that you would focus your efforts on 
enforcement, treatment and prevention. And I have four 
requests.
    One is to ensure that the provisions of the Combat Meth Act 
are implemented, to ensure that funding allocated in the Combat 
Meth Act is appropriated, and to focus on stronger enforcement 
of our borders.
    We do know that, although in Mesa County we obtain about $1 
million worth of meth a year, we only uncover on average about 
three to four small mom-and-pop labs. So whether this meth is 
coming from Mexico, Canada--I can't speak to that, but I know 
it's not being manufactured in our community. And we know that 
based on research.
    So I would ask that you would initiate an analysis by the 
GAO to determine the adequacy of our Federal Government's 
efforts in that area.
    And finally, what's most important to me as county 
commissioner is that you will ensure funding for our HIDTA 
programs. I have with me today a front page of our newspaper 
that--Mr. Sweetin spoke about this arrest. Thirty-one 
individuals were arrested in March of this year in Mesa County.
    It was the largest meth drug ring on the western slope of 
Colorado, and it was due to a collaborative effort between our 
city police department, our county sheriff, our local DEA 
office, and our Rocky Mountain HIDTA program. And this drug 
bust could not have happened without HIDTA.
    And I know there have been some attempts to cut that 
funding, and I appreciate your support of continued funding in 
that area.
    And in closing, I'll just say that as a county commissioner 
and Republican, I do not believe that government and certainly 
the Federal Government should be the answer to all of our 
problems. But in the area where government is ultimately 
responsible, such as public safety and child protection, I do 
believe that prevention is the best way to go.
    And if we can prevent the demand for this drug by public 
education and treatment, and if you can prevent the supply of 
this drug through enforcement and especially at our country's 
borders, I believe that we can lessen the burden on government 
and tax dollars. And I ask that you would prioritize funding in 
those areas. Thank you.
    [The prepared statement of Ms. Rowland follows:]

    [GRAPHIC] [TIFF OMITTED] T4235.026
    
    [GRAPHIC] [TIFF OMITTED] T4235.027
    
    [GRAPHIC] [TIFF OMITTED] T4235.028
    
    Mr. Souder. Thank you very much.
    Ms. Davenport, we're going to finish with your testimony.
    If we can move to Mr. Watson, district attorney for the 
13th judicial district.

                   STATEMENT OF ROBERT WATSON

    Mr. Watson. Thank you, Mr. Chairman, Congresswoman 
Musgrave. I am Bob Watson, district attorney for the 13th 
judicial district here in Colorado.
    And I have to say I feel a little bit like I'm preaching to 
the choir. I had the privilege of seeing the chairman speak on 
methamphetamine to the National District Attorney's Association 
in February. I've had a number of conversations with 
Congresswoman Musgrave. So I know the two of you are very 
familiar with the problems of methamphetamine.
    You've heard a lot of testimony today, and I don't want to 
repeat what others have said much better than I could. I simply 
want to focus on my district, which I think in a lot of ways 
sums up the problems facing rural communities.
    The chairman asked for a description of what our areas are 
like. I have seven counties spread out over more than 11,000 
square miles, an area larger than nine States. Basically, 
everything east of what the others have described to the 
borders of Nebraska and Kansas, everything from the northern 
part of the State down to the mid part of the State is part of 
my jurisdiction.
    In there we have basically 24 law enforcement agencies--it 
depends on how you compute some of them--most of which are very 
small. They're one- to three-man or three-officer operations. 
At some of our counties, we don't have 24-hour law enforcement 
coverage. There's time when there simply is no law enforcement 
on duty.
    You have heard about HIDTA. You've heard about EPIC. You 
won't find anything about us in those. We're not part of HIDTA. 
We're basically on our own. To do this, we don't have narcotics 
detectives and agencies. We've had to band together and try to 
come up with ways to battle methamphetamine.
    To put it in some perspective, State health agencies have 
told me that if you look at substance abuse in total, including 
alcohol in as substance abuse, Colorado ranks No. 2 in the 
Nation. One of the distinguishing features of my jurisdiction 
and a very sad one is that if you just look at methamphetamine, 
northeast Colorado, my area, ranks No. 1 in the State for per-
capita abuse. It's my No. 1 problem that I have.
    Our population is fairly flat in northeast Colorado, so 
it's a pretty good barometer for how times have changed over a 
few years. Not too many years ago, my predecessor was able to 
operate by himself and three prosecutors out of a single 
office. I now have 10 prosecutors working for me full-time out 
of four different agencies.
    Last year alone, in Morgan County, to use that one as a 
specific example--because I know the Congresswoman's very 
familiar with Morgan County--our felony filings jumped 70 
percent just last year. That's 100 percent attributable to 
methamphetamine.
    We do have the Drug Task Force, the Eastern Colorado Plains 
Drug Task Force. And with me today, not at the table but in the 
audience, is Commander Jeff Annis, the commander of that task 
force; Lieutenant Walt Page of the local county sheriff's 
office, the immediate past commander.
    When this started about 3 years ago, we had four agents on 
the Drug Task Force in a highly successful operation. We have 
put an awful lot of people behind bars. Now, since I've taken 
office about 18 months ago, we changed how we went after drug 
dealers and drug manufacturers. And as a result, a lot of the 
people who were involved in the business no longer are. They're 
behind bars.
    Unfortunately, last year the task force funding was cut 30 
percent, which cost one of the positions--actually, one plus--
being caught up by some of the other agencies. This year we've 
already been told that the best we could get would be 90 
percent, probably as low as 50 percent, past funding, which may 
simply mean that we will cease to exist as a drug task force, 
which means northeast Colorado will surrender on the war on 
drugs. We have no other way to operate on that.
    And the importance of this, I think, was demonstrated by 
the gentleman from the DEA who explained how Denver is often a 
hub for the methamphetamine that are brought in, which are then 
repackaged and sent to places east of here.
    If you look at the map of Denver, there are two interstates 
which leave Denver headed east. One is I76, which--not far from 
here, and the other is I70, which--headed direct east, both of 
which are in my district. That confirms--comports with what we 
have been seeing, an awful lot of Mexican meth being 
transported throughout northeast Colorado.
    If you come and look at one of our dockets 1 day, you will 
see that compared to past years, the number of Hispanic 
surnames has greatly increased. Frankly, we're not seeing the 
labs that we used to see. We have to have a lot of labs. A lot 
of them had hydrous stuff, which--I can go into more detail in 
a minute.
    But that's pretty much dried up. Consistent with what 
you've heard from the others, we have onesies and twosies that 
we see on a yearly basis now. It's almost all Mexican 
methamphetamine that are coming through.
    As Commissioner Rowland testified to a few moments ago, we 
aren't just looking at the enforcement aspects of this. We have 
to stop the epidemic that's ravaging our communities. And 
enforcement has to be a prong of that, and we work very hard in 
trying to get that in place, and we need to keep that. But we 
also recognize it's not the only part.
    I have been stunned by the amount of interagency multi-
disciplinary interest in solving this problem and how people 
have come together and worked on it. In northeast Colorado, 
we've put together a regional facility. And as you may know, 
we're not a very rich jurisdiction.
    But what we have decided to do is we have to create a drug 
treatment facility in northeast Colorado. There is no 
residential care there now. So we have simply put it together. 
We have formed--it's called Healing Tree. I'm on the board of 
directors for that. We're going to start a residential 
treatment program.
    Part of that will also include some type of a diversionary 
program for the methamphetamine addicts, the users who are 
involved in low-level felonies. We can kind of divert them into 
that and try to get something done.
    Colorado has also passed legislation which is signed 
recently creating a statewide drug task force, which is also 
multi-disciplinary in its approach. I worked on the legislation 
creating that. I've also been the nominee to the Governor for 
the--be the DA representative on that.
    So we're very active in recognizing that treatment must be 
part of this. And when I say treatment, I'm not talking about 
throwing good money after bad. I'm a cynic. I'm not convinced 
yet that treatment plans work. But we're going to identify 
which ones have the highest rate of success, and we're going to 
focus on those. And we're going to try and find what can not 
only fix this addiction--but be ready for the next drug that's 
going to come down the road, because we know there will be a 
next drug.
    And the third prong of that is prevention. We don't have 
the budget for that, but we've put together--this year will be 
the first time. It's very embryonic. But we we're going to 
drive through all the counties, basically during the county 
fair season and put up a booth and try to get the word out more 
about methamphetamine.
    But we're going to have to figure out a way to start 
targeting a very young age about the difficulties on this. The 
statistics I've seen about the number of high school students 
who've already used it is frightening. I think we're almost too 
late to be addressing that crowd. And it may be too late at the 
junior high school or middle school. We're going to have to 
start getting effective programs into the grade-school level.
    Just to address the anhydrous question just for a second, 
because that came up. In the timeframe 3 to 5 years ago, 
anhydrous ammonia was my most commonly prosecuted meth-lab 
crime. That's what I usually found was the person was filling 
the propane tanks from the--from out in the field.
    I have not seen any education change in anything. If you 
walk about through rural Colorado, you'll still see the 
anhydrous tanks sitting out in the field pretty much 
unprotected. What's happened is simply we've seen a change away 
from the mom-and-pop labs--in one case, a very large lab; they 
stole the entire tank and buried it--to the Mexican meth. So 
anhydrous--I don't think I've had an anhydrous death report in 
the last 2 years.
    Mr. Souder. Finishing witness today is Ms. Donita 
Davenport. Thank you for coming, and we look forward to your 
testimony.

                 STATEMENT OF DONITA DAVENPORT

    Ms. Davenport. Thank you for allowing me to be here today. 
It's a real honor. My name is Donita Davenport. I have a 
bachelor's degree in social work. I used to be a residential 
supervisor at a treatment center for children, and all the 
children I worked with came from homes where they had been 
abused because their parents were drug addicts.
    I am a mother of two wonderful children myself. I have a 
girl and a boy. I love the Lord Jesus with all my heart. And I 
am married to a man who was a meth addict for 4 years.
    Justin had a problem with alcohol and drugs from the time 
he was 18 years old. It started with marijuana; it went to 
cocaine; it went to meth, which is typical from the stories 
that I hear. His addiction to methamphetamine started in 
October 2002, when he tried meth for the first time. And he was 
instantly addicted. For him, once was all it took.
    From that moment until this, my life has been a whirlwind. 
It has been physically and emotionally draining. On the 
physical side, Justin spent a lot of money on meth. And as a 
result, we lost two houses, and we were evicted out of two 
apartments. We also had our heat shut off one winter and did 
not have money to buy food or diapers.
    Emotionally, he would get angry at me and our daughter for 
everything. I hated being around him. I also never left our 
daughter alone with him for long. I am blessed that he was 
never physically abusive, like many meth addicts are. But he 
was a meth addict, and he was not capable of being alone with 
our daughter.
    He also lied about everything to the point where I thought 
I was the one that had a problem. I thought I was going crazy.
    I knew where to go to get help for the physical needs. I 
applied at social services for everything I could. But because 
I had a job and because my husband was seen as able to make a 
good living for our family, we were denied for everything 
except the food bank and $200 a month in food stamps. And that 
lasted for 2 months before social services lost our paperwork, 
and they cut our benefits off.
    Also on the physical side, Justin had a problem, but he 
wouldn't admit that he had a problem, so treatment was not an 
option. Treatment places won't take somebody that doesn't think 
they have a problem.
    Also, our waiting list in Weld County is 6 to 8 weeks long, 
so by the time you convince the person they have a problem and 
they go down there and they get on the waiting list, then they 
sit around for 6 weeks and go get high again. And then it's too 
late.
    So our physical needs suffered greatly, and I didn't know 
who to turn to for my emotional needs. I could not afford 
counseling, and I didn't want anyone else to know what was 
going on. I thought, what would people think? We were leaders 
in our church at the time, and I just couldn't admit to those 
people that we had a problem.
    I also did not want to be labeled the wife of a meth addict 
or judged as white trash, because these days, you know, drug 
addicts are white trash people. And they're really not. They're 
everybody.
    So not knowing anyone I could turn to who would understand, 
I turned to the only one who understands everything, Jesus 
Christ. And he is my savior. He showed me that I had to get out 
of this situation and let Justin fall.
    So in November 2004, I left, and Justin fell. He was 
arrested at 4 a.m., December 30, 2004. He was charged with drug 
possession and sentenced to 5 years with the Department of 
Corrections.
    And I just want to say that by the time he was charged with 
his drug possession, that was his fourth felony that he had 
been charged with, and it was 9 years after his first felony. 
So he had 9 years where he was in the courts and he was in the 
system, and nobody ever saw that he had a drug problem.
    During that time when he was arrested and went to prison, I 
moved in with my in-laws. I was able to support the family and 
get back on my feet. I was still unable to receive help from 
social services, other than Medicaid from the kids and $200 a 
month in food stamps.
    And when I went in and applied for those things, it took 
them 6 months to approve us. And then after 2 months, they lost 
my paperwork again, found my paperwork later, and reinstated 
all of it. But for those 6 months, if I didn't have family, we 
would have been living on the street eating out of trash cans. 
You know, there was nothing else for us.
    And that lasted up until a couple months ago when Justin 
was released from prison, and he got a job. And now because of 
his job, we're not able to get any help any longer.
    I have been through a lot in the last 4 years that many 
people would never want to go through. It has been hard. But in 
the end, God always turns what was meant for bad around, and he 
creates something good. The good that has come out of this is 
that I have learned to be bold, honest, humble, and tell people 
the truth about what it's like to be married to a meth addict.
    I have also started a support group for loved ones of meth 
addicts created out of a need that I personally experienced. We 
started that support group in October with five people. We 
currently have 35 people. And we're starting our second branch 
in August and our third branch in September in Greeley.
    So now when someone finds themself in a position like the 
one I was in with no one to turn to, they can turn to this 
support group of others who know exactly what they are going 
through.
    Also, I have learned a lot about meth that I never knew 
before. I have spent much time researching and investigating 
what types of services are available and are profitable for 
meth addicts. So when people call me for help, I know where to 
send them.
    I have also spent time researching what our government can 
do to help decrease the methamphetamine epidemic in our 
country. And the first thing that I have seen is education is 
key. We have to get to these kids and tell them what meth truly 
is.
    A lot of the lies that are going around is that meth will 
make you skinny; it'll make you stronger; it'll give you 
energy. And the kids fall for it, and they take it, and then 
they're hooked. So education is key.
    A second thing is making the chemicals used in 
manufacturing meth harder to obtain. And that has already been 
done.
    The third thing is reclassification of crimes associated 
with manufacture, sale and possession of meth so that people 
charged with these crimes would have to serve a prison sentence 
longer than 6 months the first time around.
    Because they get sentenced for something. They go into 
prison for a couple months, maybe. Usually, the first time they 
get probation. And my husband was on probation, and he used 
drugs the whole time. And so I think they need to go to prison 
and have that time where they are forced to sober up.
    No. 4, I think more drug courts nationwide, drug courts in 
which not only the addict but the whole family is involved, 
because the addict's use affects the whole family.
    No. 5, better processes to ensure that the person is not 
abusing drugs and alcohol while in prison, treatment centers or 
correction homes, or on probation.
    And No. 6, treatment programs that work, not just random 
program treatment programs. But across the Nation, they are 
finding that the treatment programs with the highest success 
rate are the matrix program, and those--run by Narconon 
centers.
    In conclusion, I would like to say that where the 
government falls short, faith-based groups always step in. 
These groups can reach people one on one and introduce them to 
Jesus Christ. For those of us who love Jesus, this is our duty.
    And as President Abraham Lincoln said, even though much 
provoked, let us do nothing through passion and ill temper. Let 
us have faith, and in that faith, let us to the end dare to do 
our duty as we understand it.
    Thank you very much. And I have pictures of my husband too, 
if you want to see them. This was Justin 5 days before he was 
arrested, and he has been up 7 days on meth. And this is him 
just a month ago with our children.
    Thank you.
    [The prepared statement of Ms. Davenport follows:]

    [GRAPHIC] [TIFF OMITTED] T4235.029
    
    [GRAPHIC] [TIFF OMITTED] T4235.030
    
    [GRAPHIC] [TIFF OMITTED] T4235.031
    
    [GRAPHIC] [TIFF OMITTED] T4235.032
    
    Mr. Souder. Thank you. I think you once again proved God's 
more reliable than the Federal Government. We'll try to 
improve. We'll never be the same.
    There are lots of different angles here. Multiple times 
drug courts were raised. I believe we actually increased the 
funding slightly on drug courts, but I'm not sure, because the 
whole budget went down. I know the President's budget initially 
had that portion go up.
    But one of my frustrations--and I think it's very important 
to put this on the record--that--and I heard some frustration 
from some of you at State and local levels too--is that this 
isn't--I've argued on the Byrne grants--for the--more money. 
For all the type of stuff on drugs--I've argued narcotics all 
my life.
    This isn't just a Federal problem--and that the State and 
locals--if you take all the State debt combined in the United 
States and all the local debt combined, city, county, township 
and everything together, you don't even equal a fraction of our 
debt at the Federal level.
    We don't have any money. We just print it. And all that 
does is it inflate--interest. Now, we're jockeying internally 
how we do the money. But this has--there has to be an 
understanding, if we're going to have this problem, that 
everybody's going to join in, and we're not just going to bail 
it out.
    Now, some places have more resources. And rural areas, when 
they get overflooded with this problem--we've got a disconnect 
right now with where those resources are to do, for example, 
the matrix treatment and drug treatment.
    Because often, as I heard last week and I certainly see in 
my district, the more rural the area, the more likely you are 
to have entry people. If you have a treatment program. You have 
entry-level treatment there.
    In the urban areas, they've heard of the matrix--in fact, 
may have implemented it. In a suburban or outlier city of 
30,000 40,000, they may have been at a conference once where 
they heard it referred to read the literature.
    In the rural area, they probably haven't even heard of it 
in most cases, because they don't get--they can't afford to 
get, in many cases, a lecturer to even go to the conference.
    I do know there are differences in problems, but this has 
to be State and local. And one of these is drug courts--that 
you can form a drug court. It doesn't take the Federal 
Government to form a drug court.
    One of the judges in my district who's from a smaller 
county said, You know, I think I'm going to turn my court into 
a drug court. We keep hearing--acting like it's the Federal 
Government that has to create the drug court.
    What it takes is a very committed judge working with local 
law enforcement and--because it takes incredible time and 
commitment, because the judge has to followup on a personal 
level and actually hear the cases.
    And where we have probation officers just overwhelmed with 
600, 800 cases, they may never see--once, let alone be able to 
know whether they're on--abusing drugs. And probation officers 
are--we don't have enough probation officers in a rural county 
to--any of the sheriff--how many people on probation does a 
probation officer have in your area?
    Mr. Watson, you have the most----
    Mr. Watson. I actually heard the number, but I hate to 
repeat it, because I'm not----
    Mr. Souder. OK.
    Mr. Watson [continuing]. Confident about it.
    Mr. Souder. I know in rural Indiana, it gets to size 900.
    Mr. Watson. Well, what--one of the complicated factors we 
have, of course, is distance. And it's--you know, I can drive 
from one officer in my district to--probation officer to 
another for 2\1/2\ hours on a highway and no traffic. So the 
area that they have to cover is huge. It complicates 
supervision.
    Mr. Souder. Do--let me ask--well, let me take the sheriff 
and lieutenant here. Do you know--do--in many any of the--do 
you have drug-testing processes for people on probation?
    Mr. Cooke. Yes. They are tested for drugs, and they have--
it's random. They come in and give samples. So yes, they do 
have drug testing.
    Mr. Dodd. Same here.
    Mr. Souder. Do you know why your husband wouldn't have been 
picked up in the drug testing?
    Ms. Davenport. He only did two drug testings the entire 
time, and both times it wasn't his.
    Mr. Souder. It was what?
    Ms. Davenport. It wasn't him that peed in the cup. It was 
somebody else.
    Mr. Souder. OK. That's another hearing. That--we've dealt 
with that. It is a huge problem. It's why we need to move 
toward follicle tests. It's a little tougher to get other 
people's hair, not impossible.
    Ms. Davenport. Well, and also, they started eye-scan tests, 
which read your eyes. And it can tell if you're high that way, 
which I think is much more reliable than----
    Mr. Souder. Have any of you tried eye scan? How much more 
expensive is visual equipment? Nobody has that here?
    Ms. Rowland. We just recently implemented it in our 
criminal justice division. I'm not sure about the cost. I know 
it's been very effective.
    Mr. Souder. Have any of you had a drug--judge set up a drug 
court that hasn't had Federal funding?
    Ms. Rowland. We have tried to get our judges to do a drug 
court for several years now, and they have been just not very 
anxious to do so. Part of it is because we're understaffed 
already, and it takes more judges to do that. And then you add 
a judge, and you add a DA and those types of things.
    So the Fast Track Program is our response to the inability 
to have our judges----
    Mr. Souder. Here's a challenge that I want to put out 
that's always put out to legislators, but the law enforcement 
side has to really look at this question, because it 
illustrates the challenge. If drug courts reduce the crime, 
then you wouldn't need more judges. If treatment centers 
reduced the crime, then you wouldn't need more prisons--if 
prevention programs do that.
    The fact is that there isn't really hard data--that drug 
courts appear to be the most promising, probably because they 
have--because we have measurements. They're already in prison. 
We track them. It's an alternative.
    And even then, what you tend to do is reduce the amount of 
recidivism. You don't necessarily--once you're an addict, 
you're struggling with it. But you get maybe 25 percent cured. 
They're not 100 percent. And then you lower the recidivism of 
the other.
    But somewhere here there should be a cost benefit in that--
it's real interesting, because I love to ask law enforcement 
people--say, put more money in treatment prevention. Would you 
suggest reducing your budget to do that? Because that's our 
choice.
    And that the--what I was so impressed with--what you're 
doing in southwest Colorado is you actually were faced with the 
choice. And I would very much like to see how that works. 
Because if you're forced to make choices, you measure closely, 
and the community's going to hold you accountable if more 
people are on the street because you didn't build another 
prison.
    But if in fact it works, it's--people aren't going to just 
say, oh, there's money growing out on trees somewhere. We'll 
put in a treatment program. We'll put this in. When you're 
forced to make these tradeoffs, it's--you really got to make 
them work.
    And you want a treatment program that in fact isn't just 
another pasture. You want a treatment program that cures 
somebody. Because if you as elected officials made a decision 
you're going to do a treatment program rather than a prison--
somebody comes out of the treatment program and does something 
as--by the way, they do out of prisons too. So we don't want to 
have--it's got to be a realistic measurement.
    But that's the hard tradeoff we're trying to work through 
here. And it's very hard to get measurements of prevention.
    If I can mention one other thing, and that is that we have 
seen a rise in meth among young people. Let me ask, Ms. 
Davenport, do you think that an education program would have 
changed your husband's habits?
    Ms. Davenport. I think he would have known what he was 
doing when he took meth for the first time. He didn't know 
exactly what meth was. He thought it was like cocaine, and he 
could just stop. I mean, he didn't know that one time is all it 
takes for a lot of people to be addicted.
    I think if the kids are aware of really what meth is and 
what you look like, what it does to the insides of your body, I 
think they'll have that when they're approached with it. And 
they'll have something in the back of their head where they can 
go, no, I don't want to be part of that.
    But right now, if someone comes up to them and says, Take 
this; it'll make you run faster--oh, OK.
    Mr. Souder. But part of our problem is it does, and part of 
the problem is you can skip sleep, and you can get weight loss, 
and----
    Ms. Davenport. It's just educating them. But yes, you can 
get skinny. And you will get so skinny that you'll see your 
bones. And that--your kidneys won't work right. And that--your 
brain starts to turn to mush. It's educating them on the other 
half of that.
    Mr. Souder. Because part of our problem is that when we've 
analyzed the prevention programs, the prevention programs tend 
to reach the people who aren't highest risk. Because, for 
example, my daughter paid a lot more attention to it than my 
sons, who thought a lot of these prevention programs were kind 
of hokey. And how we deal with that is just a huge challenge.
    The Montana Meth Project's a very interesting thing when 
it's screaming at you from everywhere with a shock effect. But 
we're still trying to go through the data on whether it's 
actually having an impact.
    Our National Marijuana Project seems to have altered kids' 
attitudes but had--it's, quite frankly, easier to alter 
somebody's attitudes on drugs in 3rd grade than it is in 7th 
than it is in 12th than it is an adult. That--it's not clear it 
holds. There's no evidence really. There is no evidence that if 
you convince a third grader or a sixth grader that it holds, 
because you don't feel tempted then as much.
    It's real easy to convince third graders--less easy than it 
used to be--that premarital sex is wrong. The problem is, when 
they get tempted, do they think it's wrong. And that's our huge 
challenge in drug prevention.
    I yield to Ms. Musgrave. Then I have some more questions 
too.
    Mrs. Musgrave. Well, I'd just like to address the criminal 
activity that goes along with meth use.
    And I tell you, Mr. Buck, I am quite disparaged by the 
remarks on the selective service. Six years ago, I sat in a 
Senate committee in the Colorado State House, and I had one of 
their postcards. And I said, you can't mean that you really 
want someone just to drop this in the mail after they've put 
their date of birth, their Social Security--all this 
information. And identity theft was nothing then as to what it 
is now.
    And I can tell you that my staff and I are going to be all 
over that, because they assured me that it would be in an 
envelope, that nobody could just look at this postcard. And it 
appears that's not the case, that it's now just a postcard 
where all this very personal information is just right there 
for anybody to view.
    So I am very discouraged by that. And I guess it's them 
that are disparaged, because they didn't tell me the truth. And 
we're going to look into--you've really challenged me to look 
into all these forms.
    You know, I was the victim of a car break-in in Weld 
County. And, you know, really--and you start talking to the law 
enforcement, who of course can't do anything except, you know, 
do their report, because it's a done deal, and whomever did 
it's long gone. And you got to clean up all the shards of 
glass, because somebody took a bag out of your car.
    And--but I think of all the crime that revolves around 
meth. And I'm sure I don't know the half of it. You're the 
folks that deal with it every day. But we have to find a way 
to, you know, first of all, deal with the rudimentary things 
like forms that give out personal information that people use 
all the time.
    But we also have to not only educate people on what meth 
does to you but educate people on what to look for, because, 
you know, we're so far removed from that aspect of life. I 
think there are parents that have no idea what their kids are 
doing, I mean, until the devastation hits.
    And I hate to say that, Madam Commissioner, I am quite 
impressed with your county's approach to just the very 
pragmatic aspect of, we can't just, you know, deal with the 
crime. We've got to deal with the treatment.
    And methamphetamine, as Ms. Davenport so poignantly 
stated--you know, her husband tried it one time, and then the 
hellish road began. And we have to try to treat meth addicts. 
And it's amazing to me the uniqueness of this drug in regard to 
how easily it was first manufactured, how easy it is to get it. 
And then what do we do with these people who are so quickly 
right back into addiction?
    I heard a number of people talk about the border issue and, 
you know, what we have to do. And I think that's something that 
we can really grab ahold of right here as Members of Congress. 
We have to have border enforcement with, you know, drugs coming 
into our country. And I daresay--northern border is very 
important too, although we focus mostly on our southern border.
    I just wondered, Sheriff Cooke, if you could--and maybe the 
lieutenant also could address the change in the last 5 years in 
regard to what you've seen with methamphetamine use.
    Mr. Cooke. Certainly. Five years ago, 70 percent of the 
cases worked by Weld County Drug Task Force were cocaine, and 
then 20 percent was meth, and then the 10 percent was 
everything else. Now that--those numbers have--are reversed, 70 
percent meth cases, about 20 percent coke, and then 10 percent 
everything else.
    So the usage has just increased. And our crime rate has 
increased. Our burglaries, our thefts are up about anywhere 
from 10 to 13 percent. Our auto thefts are up about that. Our 
aggravated assaults are up 40 percent. And I think directly--
when you consider 50 percent of those crimes are associated 
with meth, and then 90 percent of the fraud and identity-theft 
crimes are associated with meth, the change has been 
phenomenal.
    Mr. Souder. Let me ask a question about--and then if the 
lieutenant can pick up on this too. You said it went cocaine to 
meth. And you ask--did you get dealers in that too, or mostly 
users you're talking about here?
    Mr. Cooke. Well, these are from our task force, and so our 
task force goes after not usually the user. They go after the 
supplier and the dealer.
    Mr. Souder. So as you turn that case higher, are they the 
same people that sold the cocaine?
    Mr. Cooke. Yes. I'm sorry----
    Mr. Souder. Were they the same people that sold the 
cocaine?
    Mr. Cooke. Some of them. We find that some of them are 
changing from coke to meth. And since our labs have dropped--a 
lot of it was the mom-and-pop labs, but since they have 
decreased, some of them are becoming diversified.
    Mr. Souder. Some of whom's becoming diversified?
    Mr. Cooke. The dealers are becoming diversified and going 
away from the coke to the meth.
    Mr. Souder. Because they saw a market. Do you--Ken, do you 
want to answer--well, let me ask--because here's what we've 
seen nationally, that the mom--there--it was assumed--and this 
is what we're watching very closely for. Is crystal meth going 
to hit the same users that were the mom and pop?
    Because the mom-and-pop labs were predominantly rural, some 
suburban. And the non-homemade stuff was urban. And the 
question is that--and the mom-and-pop lab users tend to be more 
isolated, often disoriented, and particularly as they use it 
quicker, don't necessarily go in--they didn't buy their 
product. They got it at a--in a pharmacy.
    So they weren't--they didn't even necessary know--let me be 
real blunt. In my home area, young rural white kids didn't even 
necessarily know what block to go into to find cocaine or 
heroin. And we were almost looking at different--in my 
district, where you see high percentages of Hispanics, you see 
more crystal meth. Where you see a higher percentage of Anglo 
population, you'll see mom-and-pop. And in the urban areas, 
where it's a higher percent African-American, you see crack 
still.
    That same pattern is true in most of the United States, 
with some exceptions, as it's moved into St. Paul, as it's 
moved into Portland, Omaha. And I was trying to figure out here 
in Colorado if, when you talk about this--if it's the same--if, 
in fact, the mom-and-pop people are converting over. They 
weren't buying the cocaine. And the dealers are now locating 
how to sell to a new market that has predominantly been a 
little more isolated.
    Mr. Dodd. It's very similar in Weld County. I think 3 years 
ago, 70 percent of what we gave the Drug Task Force was 
cocaine. It seems at that point in time, cocaine led law 
enforcement to shift and went to methamphetamine. And we're 
seeing that back and forth. It's the same Mexican drug 
trafficking organizations that are supplying the cocaine and 
the methamphetamine.
    It's the same families that we're seeing day in and day out 
on a local level. But 3 years ago, it was more cocaine. Today 
we're getting meth. And we're seeing more and more of these 
same organizations not only dealing meth and cocaine, they're 
dealing American marijuana--whatever they can bring into the 
country and be successful at selling.
    But depending on where our emphasis is, they may shift the 
drug of choice and push that drug of choice.
    Mrs. Musgrave. Mr. Watson, rural areas are very 
conservative. Families have dinner together in the evenings, 
and we really don't have a drug problem in rural areas. Right?
    I get so frustrated when I hear people say that. And could 
you please address that?
    Mr. Watson. About 2 weeks ago, we had a woman get killed in 
a traffic accident. She was very well known in Logan County, 
very well known in law enforcement. In fact, she had the 
company--the cleaning company and cleaned up my office, cleaned 
up the court, the sheriff, the police.
    She was taking her son to school, pulled out in front of 
another car and was struck and killed. It looked like a 
standard accident. We were shocked. We get the toxicology 
report back and find out she was high on meth.
    I am constantly stunned. Maybe I shouldn't be at this 
point, but--how insidious it has become in the communities, 
that the people--you know, you always have a mental image, I 
guess, of who a drug addict is. And you become really surprised 
at the people who are using it.
    And we're seeing it now being multi generational. It's not 
just the at-risk, you know, teens, you know, experimenting. 
We're seeing parents and kids and grandparents using it. It's 
very widespread.
    Mrs. Musgrave. I just wondered, Ms. Davenport, if you could 
perhaps--you know, you talked about--we need education. And the 
chairman talked about the various ages where something--you 
know, the kid's pretty agreeable to it because they haven't 
faced the peer pressure and all the aspects that really make 
them want to do things that are--that we consider very 
destructive that--they haven't figured out how destructive they 
are.
    When you talk about your experience, it's very touching to 
hear what your family's gone through. It's really remarkable 
that you still call this man your husband and you're still 
together after what you've been through.
    Do you have any insight--the chairman alluded to this 
somewhat--as to how we can really reach these kids? Do you have 
any additional ideas as to how the government, how the school 
system, how the local communities can really make an impact?
    I assume that your husband had a good life going for him, 
and yet he fell into this. And then I think of children from 
homes that are--you know, have a great deal of problems anyway. 
And sometimes this seems kind of insurmountable. And I'm sure 
law enforcement feels that way too.
    What would you have to offer in that area after your 
horrific experience that you've gone through?
    Ms. Davenport. Well, I've had several of the schools in 
Greeley contact me, and they want me to come in and share my 
story, and my mother-in-law too--just come in and talk on a 
personal level.
    If this is what happened to us--and we are not your white 
trailer-park-trash people. We were leaders in the church. My 
husband grew up here. You know, he owned his own business. He 
was successful. And this can happen to anyone.
    So I think going into the schools, all ages--and not just a 
textbook program, but having people who have done the drug, 
people who have sold the drug, people who have been in that 
world and are leading a good life now going in and talking to 
the kids, so the kids can ask honest questions about what 
happened and what made you do it and what's the good part about 
it; what's the bad part about it.
    And in the high schools, I'm not--you know, people tell me 
it has to be shock therapy, because they're exposed to so much 
every day that if you don't shock them, they're not going to 
listen to you.
    But I have a teacher from a junior high who says, my kids 
are asking me questions about meth, because they're seeing it 
at home; they're seeing it other places. And I don't know what 
to tell them. Can you just come in and answer their questions?
    So I think it's kind of talking to the teachers and finding 
out what it is that they think is going to work with the 
students that they see every day.
    And also, of course, to keep high-risk kids from doing it, 
they need an alternative. They need other people to hang out 
with. They need other places to go besides the areas that--
where people just go and sit around and get high. They need 
some kind of other activities that are going to keep them busy 
and keep them interested.
    Mrs. Musgrave. I think the chairman alluded to the fact 
that some of the claims that are made about meth--you know, the 
immediate result is, you know, something that is very enticing 
to a lot of kids. So I think we're going to have to really 
focus on short term and long term and try to get that 
connection, which is not easy to do, to--you know, with a 
teenager who thinks, you know, those things will never happen 
to me and I'm invincible.
    Mr. Souder. If you have additional questions, I'll come--I 
have----
    Mrs. Musgrave. OK.
    Mr. Souder [continuing]. A few additional too.
    To Ms. Rowland, one of the problems in the--we've heard 
about weight loss, which seems to be an orientation toward 
women. Often it's truck drivers in my area and factories--
people trying to get extra hours and faster piece rate. In your 
comprehensive approach, did you work with the business 
community and say, will you drug test in your firms?
    I had--I've had two counties where they started into it, 
and they were so shocked. And they're so--they have such a 
labor shortage that they stopped, because they got depressed. 
And they'd just as soon know if--not know about it.
    When you do a comprehensive approach, it seems that unless 
we engage the business community in this, we're going to have--
we're not going to get it solved. Did you approach that, or 
what was their response to this?
    Ms. Rowland. We have to some extent. The energy industry is 
very big in our county, and they randomly test drug--drug test 
all of their employees. So there has become this perception 
that there is a lot of meth use in the energy industry. And I 
think it's just because they're being caught more, because 
that's really where they're focusing on the drug testing.
    So we haven't taken an approach with the business industry 
asking the business community--asking them to do that. But we 
did learn in our research--we wanted to find out the types of 
people that use and why they use and when they first used.
    And we learned that 52 percent of them either first used 
with family member, a spouse or a friend. So those folks were 
more relationship-based in what they needed. The other 48 
percent were using to get more done, to stay up longer, to lose 
weight, although it was a small percentage, surprisingly, that 
was to lose weight--or just a boost in excitement and that 
risk-taking.
    So we're gearing our prevention efforts twofold. For those 
that are using because they want to lose weight, something like 
the extreme meth makeover billboards that we have in Wyoming 
that shows the before and after pictures--that might make a 13-
year-old girl who's going to take it to lose weight--that might 
stop her.
    But if you're 11 years old; your dad's in prison; your 
mom's an alcoholic; your two older brothers are using meth and 
getting involved, probably a billboard or a commercial, ever 
how compelling it might be, might not stop you. You know, those 
folks can be helped if they have senior partners, Big Brothers, 
Big Sisters and those types of programs for them. We're working 
a lot with our faith community as well. So we're trying to 
balance all of that.
    You make a good point though about the drug-testing 
business.
    Mr. Souder. And there are two types. And what I should have 
said is I meant drug testing after they're on the job. Most 
businesses are drug screening at the beginning. And did you 
talk to your--have you talked to your unemployment offices or 
welfare offices--if anybody else knows the answer to this 
question, let me know too.
    My understanding--or business community with the chambers--
that is--as many as 40 to 60 percent of the rejection for a job 
hire, depending on the area, is because of--they failed to pass 
a drug test, and that it has become one of the most common 
reasons for unemployment--is that you can't pass a drug test. 
Anybody have any----
    Ms. Rowland. I know we have a problem with that. And I'm 
told by our work force center that we--what those statistics 
are. I don't know. I can certainly get those for you. It 
wouldn't surprise me.
    Mr. Souder. In the--if we can--I want to bore in a little 
bit on a couple of Colorado statistics again on the--in trying 
to understand how the trafficking networks are working and--Mr. 
Watson, in your area, you mentioned--is it I76?
    Mr. Watson. I76.
    Mr. Souder. And you seemed to imply that the Mexican 
trafficking groups were coming off of that. Is that the north 
part of your district?
    Mr. Watson. The I76 is. It cuts up to I80, which is the 
north/south----
    Mr. Souder. And then have Mexican trafficking organizations 
historically worked in your area?
    Mr. Watson. No.
    Mr. Souder. How would they set up?
    Mr. Watson. I don't have the intel on that. I can ask the 
guys your question. Perhaps my drug task force people could--
it's just been a phenomenon we've noticed in the last couple 
years. We're seeing many more--usually hidden panels in 
vehicles and things like that, and the interdiction with the 
State patrol's been very high.
    And then where we actually deal with the people who are 
distributing it in our community, it tends to be Mexican 
nationals that are involved to a very high degree.
    So how it became that they established those inroads into 
the community, I can't answer. It's not like we had an 
extensive crack distribution network or something in northeast 
Colorado. That just was never there.
    Mr. Souder. So it didn't--how do you think it converted 
over? Do you believe that 80 percent of your area's now also 
Mexican meth as opposed to mom-and-pop labs?
    Mr. Watson. I do.
    Mr. Souder. How do you think it converted over? Have you 
had anybody who used to be a mom-and-pop lab user who's--who 
you've prosecuted who said, I got it from a Mexican 
distribution person?
    Mr. Watson. No. I have never had anybody say that--in--that 
directly. What we saw is one followed the other. We have seen 
an increase in our Mexican national or immigrant population 
kind of work like the hog farms. It's an agricultural base.
    So I think it was simply some people that were there 
interacting in bars, other setting. And it just--it's a word-
of-mouth industry. And I think it started very casually in 
rural settings.
    Mr. Souder. Mr. Abrahamson, have you had anybody who was a 
mom-and-pop lab user prosecuted for purchasing meth from a 
Mexican?
    Mr. Abrahamson. Not that I've been aware of. I, you know, 
hear that is occurring or it's now easier to get the drugs by 
purchasing from somebody who's trafficking as opposed to set up 
a lab and take the risk of something blowing up or burning. And 
plus, it's harder to get the ingredients to make the--you know, 
to run the small labs.
    So I think as a matter of convenience, people are 
purchasing it as opposed to cooking it themselves.
    Mr. Souder. Sheriff, have you picked up anybody who was a 
former mom-and-pop lab cooker who--with Mexican meth?
    Mr. Cooke. You know, I don't know the answer to that, Mr. 
Chairman, but if I could go back to what you asked the DA from 
the judicial district out east. Weld County is a large--has a 
large immigrant population. Officially, it's about 24, 25 
percent. Unofficially, it's probably 33 percent.
    And so I think how they establish is through family ties. 
We have a large illegal immigration population, so they can 
get--establish there a lot easier, because the family live 
there and the relatives and close friends. So I think that's 
how they make inroads into certain areas, certainly into rural 
areas.
    Mr. Souder. Lieutenant, have you had actual conversion 
over?
    Mr. Dodd. If you're talking about meth cooks, I can't think 
of any meth cook that we've arrested or prosecuted has gone to 
Mexican road trafficking organizations. Customers of meth cooks 
or meth mom-and-pop cooks--absolutely.
    Mr. Souder. OK. Now, what--OK. That's--this is a good segue 
here. Because what I'm trying to figure out--because one of the 
dangers here that we have is that when we have almost instant 
information sharing at the Federal level--that an assumption is 
made it's distributed.
    And the question is, is it being actually verified 
grassroots up--and that we can make major policy decisions at 
the Federal level that were based on a general assumption.
    And I'm trying to figure out--you know, we've done enough 
of these things--and that one theory could be that the meth 
market is expanding, but it is not where the mom-and-pop labs 
were, and the jury is still out where the mom-and-pop labs are 
going to land. In other words, you could in your communities 
see a rise in non-mom-and-pop lab meth but it be a totally 
different expanding market.
    But you're an interesting mix here, because most of the 
areas you're dealing with are not urban centers. So we've got a 
little more unified mix here from very rural to mid-size-town 
rural--that--now, the mom-and-pop cookers generally sold to 
only two to three people, or did they have bigger distribution 
rings in your areas?
    Mr. Dodd. Most of ours that we've experienced are small 
labs, so you're looking at 1 to 2 ounces per cook, that type of 
thing. They could have anywhere from three to five customers, 
it would be my guess. In the cooking area----
    Mr. Souder. In that--from what I understood the mom-and-pop 
cookers to be--is that generally speaking, they would go in a 
smaller and smaller circle of influence, partly because one of 
the brain impacts of this drug is you become paranoiac.
    You also are worried about other people smelling it, 
identifying you as a dealer. The more publicity there is in a 
community, the more isolated you become. So it tends to be 
inside Mexican motorcycle gangs, as you've already--not 
Mexican; motorcycle gangs--or in certain kinds of networks.
    So what would cause that network to spin off from a mom-
and-pop user and cross over to a Mexican drug user--provider, 
but not the manufacturer?
    Lieutenant, you said that you thought some of their market 
was changing, but the market usually is pretty tightly wound. 
Or is there a different phenomena in your area that I missed?
    Mr. Dodd. Well, maybe I'm not following the question 
correctly. I thought the question was, of the users that used 
to go to mom-and-pop lab cooks--are they transitioning----
    Mr. Souder. And what I basically laid out was a premise 
that--I'm asking whether you're challenging that premise. 
Because, for example, one of the unusual things is this is a 
family crime. Mom-and-pop cooking is a family crime. Often the 
whole family knows about it. Some of them are jointly cooking, 
and sometimes the kid's involved in the cooking. And it's 
usually in a very tightly knit community.
    Are you saying that the mom-and-pop cookers in your area 
actually went out in the street and sold it, or did they sell 
only to their family and close friends?
    Mr. Dodd. Family and close friends.
    Mr. Souder. So that would mean that if now their family and 
close friends are buying Mexican meth, that it's penetrating 
into that circle.
    Mr. Dodd. Yes.
    Mr. Souder. So you think it's just a matter of time until 
it hit the cook, in effect.
    Mr. Dodd. If the cook couldn't get the product to cook his 
own product, then yes----
    Mr. Souder. Where--are the markets that identifiable? Do 
you think it's through the bars or just word of mouth that--
hey, this--I mean, I tend to think that this is the most 
illogical explanation--is that people hear. The question is 
that these people aren't heavily socializing, usually.
    If our theory is correct, which is--tends to be overstated 
about the line of destruction on meth--I'm hardly advocating 
for meth. I'm just saying part of the thing is we have to be 
realistic--is that some people go like this. Some people 
actually manage it longer period of time.
    And if they see their neighbor on meth and they've been 
told that they're going to get meth mouth in 3 months, and they 
know somebody who's been doing this for 5 years, we've got a 
credibility problem that we develop, like we did on marijuana 
early on--that in--the meth question, though--it does tend to 
lead to faster deterioration, just like crack, because of its 
impact on your brain--that I would--does--you're saying they're 
functioning enough that they're going to figure out a whole new 
distribution system of going to Mexican distribution systems. 
In your opinion, that's starting to happen.
    Mr. Dodd. Yes.
    Mr. Souder. Anybody else have any comments on that? Because 
this is--clearly, we're all bringing--every area of this Nation 
is bringing in more immigrants, often illegal. That's a place 
for drug dealers to hide--that the question is, how do they 
make the transition into the majority communities around them 
in their sales if they weren't already there, if these markets 
weren't in the crack cocaine/heroin marketplace. Yes.
    Mr. Abrahamson. I have recently come back from the national 
drug court conference in Seattle. It was a week or so ago. And 
this was a subject that was brought up with some people who 
were actually cooking and talking about their process and why 
they did what they did and who they distributed to.
    We're finding that most of the people who--the mom-and-pop 
shops were cooking primarily for their own use, and then they 
would just give it away to some of their friends. And once in a 
while, they'd sell some just to put some money in their pocket.
    But for the most part, most of the mom-and-pop operations 
were not large operations. And they would even get into sort 
of--the paranoia built into this a little bit, but a lot of it 
was just they became so involved in their cooking process--they 
were involved in how to make it better. And it got to be sort 
of a little competitive issue between local cooks.
    But it wasn't the big distribution system that you would 
expect. And I think that's where we're getting--that was coming 
in from Mexico and outside. The local mom and pops were not--
were basically just operating in very small circles, even to 
the point of just giving it away to some of their friends, as 
opposed to starting a distribution.
    Mr. Souder. This is--the fundamental question that I'm 
really--I'm done pursuing it here. But if--to watch this is 
that part of the disconnect of why the Federal Government 
didn't respond to the meth crisis was--is that it tended to be 
in more rural areas. It tended to be in a different community 
than we're used to dealing with. And it tended to be not going 
through networks.
    And therefore, the Federal Government basically didn't 
think it was happening. And that--to the degree it moves to 
these distribution networks, it--we then start to look at the 
border. We start to look at cross-area things.
    The question is, is the market that we've developed, which 
may have been only 33 percent, going to cross into the Federal 
market, or will there be a separate type of a network develop 
that will once again--five years from now will be in front of 
Congress going, this is happening in rural America, and it's 
different than what's happening in Denver and what's happening 
in the bigger cities, and you didn't respond to it.
    And watching what happens, starting with those former 
cooks--and where do they show up in law enforcement? Do they 
switch over now to hydroponic marijuana, which is a segue, 
because hydroponic--in the hydroponic marijuana that you said 
you've gotten--the home stuff--what THC content level are----
    Mr. Sweetin. Is he still here?
    Mr. Sweetin. I am.
    Mr. Souder. What have you found in Colorado?
    Mr. Sweetin. I'll have to get you the exact numbers. Higher 
than it was 10 years ago----
    Mr. Souder. Twenty, 30, 40----
    Mr. Sweetin. I don't know that we've had in the 30's and 
40's, but I would say it would be safe to say in the 20 range. 
I'll get you that number.
    Mr. Souder. And--because it was real interesting in our 
treatment hearing last week--Dr. Volkow from NIDA--head of NIDA 
testified that basically, some of the crack and meth have a 
similar impact on your brain.
    What isn't clear yet is what the high THC stuff does at 30 
and 40 and whether it's more like the ecstacy/crack/meth impact 
or whether it's more like--whether it's a more sedating drug or 
whether it's a more hyperactive type drug.
    Because if it becomes an alternative, then we've just found 
a hole here that we need to be watching, because the stuff can 
be bought from Vancouver fairly easily over the--to be able to 
cook it yourself. We're back into the cook-it-yourself 
business.
    And that watching this two track--because there's no 
question that, in effect, the information on meth that's got 
out has expanded the Mexican reach.
    Furthermore, if they can sell meth, they cut out the 
Colombians in that--so it's not clear that the gangs and the 
distribution networks aren't going to switch over to meth 
merely because, as a dealer, you just cut out one level.
    You don't have to get the stuff down in Colombia and grow 
it and bring it out into ships and go up all the way through 
Guatemala and Mexico or however you get it to the United 
States. You can do it right across the border. And as you've 
all testified, it's not exactly secure. That--this is a huge 
challenge.
    Do you have additional questions you want to----
    Mrs. Musgrave. I'd just like to make some positive remarks 
as we conclude here. And one thing I would like to say to Madam 
Commissioner though is I hope that Colorado counties will 
really take note. You know, I guess when people run for county 
commissioner, they probably don't always anticipate that they 
will be hit with things like a meth problem in their counties. 
But I think we need to do this at every level.
    Law enforcement folks, I admire your tenacity and your 
willingness to stay after this and try to come up with some 
very needed solutions.
    And in regard to some of the requests that you made when 
you said, you know what the Federal Government can do--in last 
year's State justice and commerce appropriations, I secured 
funding for Weld County and Larimer County law enforcement 
initiatives.
    And just recently, we passed our 2007 appropriations bill, 
and I did secure funding for Weld County's gang task force. 
Also, this will target gang members committing violent crimes. 
And that's very important, as we've heard from these--this 
testimony today. And the danger that these gang members pose is 
an incredible risk to the community.
    I also worked hard for funding for Larimer County's law 
enforcement initiatives and also technology improvements and 
secured funding for that. And then, on a very positive note for 
rural Colorado, I did secure funding for Eastern Colorado 
Plains Drug Task Force.
    Last year these amounts were $250,000. So there will be--as 
the Senate approves this, we'll get the exact numbers, but I 
think there will be at least that in each one of those. So 
hopefully that will help, especially with resources in areas 
where they are very limited and in areas where the problem 
seems to be very severe in parts of the 4th district.
    So I just want to tell all of you how much I have 
appreciated your testimony. Your personal story, Ms. Davenport, 
was extremely touching, and I thank you for your willingness to 
let other people know about your very personal problems in an 
effort to try to help others that may be facing the same thing. 
So thank all of you.
    And thank you, Mr. Chairman, for your willingness to come 
to Colorado. And I appreciate your passion on this issue. I 
think we're in for a long haul as we try to sort this out and 
find solutions.
    Mr. Souder. Well, thank you. And it's lucky there weren't 
lots of other Members here to say how much you got for your 
district and specific things, or they'd all be jealous.
    First, let me thank all of you for giving specific 
suggestions. It's not easy to do that, and we appreciate that. 
And it blends together with what we pick up in other parts. And 
you always learn different variations.
    I think the biggest consistency I saw here that was a 
little bit different was to see the intense shift over to the 
number of cases you have in meth that's been steady--
increasing.
    And what it looks like to me is that it almost made a--just 
a--the pseudoephedrine controls have changed the nature of the 
debate. We're trying to figure out exactly how. But it hasn't 
changed that the problem is meth.
    It's a little bit better for environmental reasons. You're 
not going to have the local volunteer fire department going to 
get blown up if it's the crystal meth. So it'll change the 
nature a little. But you're still going to have property crime. 
As I heard you say, they're still going to do property crime to 
buy the stuff.
    They're still going to have all the family internal 
problems that you have from drug abuse, like we heard so 
eloquently today, I mean, the difficulties of finances, the 
difficulties of health care coverage, the difficulties of--with 
children, of, in your case at least, not abuse.
    By the way, I got to defend trailers here for a second. My 
district is the No. 1 manufacturer of trailer--that we ship 
manufactured housing. It is a great entryway for people to be 
able to own their own property. I understood what you were 
trying to say, but I had to say that in defense of trailers.
    I had a specific question. I believe it was Mr. Watson--I 
can't--that--you had some--you had a 2005--some 2005 
statistics. Was that in your testimony?
    Mr. Watson. It could have been from my agency, maybe from 
what we did. I talked about the impact in Morgan County last 
year on felony filings, where they'd gone up 70 percent from 
the previous year.
    Mr. Souder. I'll followup. I had a technical question on 
one of these, whether all of that was 2005 data or whether it 
was from another year. Because some of the data on these--here, 
on Larimer. It was this one.
    Mr. Abrahamson, in Larimer County--you say at the 
beginning, In Larimer County alone, during the first 9 months 
of 2005, 52 children were placed outside their homes.
    Mr. Abrahamson. Correct.
    Mr. Souder. Toward the--page 3. Then you have four other 
statistics there, four other comments. Were those also 2005?
    Mr. Abrahamson. Those were all--from the information that I 
gathered, they were all, I think, in the first 9 months of 
2005--where they're getting that information.
    Mr. Souder. So this is three quarters of a year. And it's 
all just last year.
    Mr. Abrahamson. Right.
    Mr. Souder. So even though your labs were declining--do you 
know whether--is there a base to compare that to? In other 
words, don't--I'm not asking to go out and do a whole survey, 
but if there's a way to approximately say--if nothing else, is 
that up or down, compared to pre-2005?
    Because you've shown that the--your meth arrests are up. 
Your meth seized are up. Even your labs dismantled were up in 
2005. So you were headed up even in labs.
    Mr. Abrahamson. Right.
    Mr. Souder. 2006, is that down?
    Mr. Abrahamson. I'm sorry?
    Mr. Souder. Is it dropped in 2006?
    Mr. Abrahamson. I don't have the figures for 2006.
    Labs? We've only had 4 this year, 19 total last year.
    Mr. Souder. So the labs are down. Do you believe--if you 
can kind of--what I'm trying to do--because I don't want to 
make misstatements that--because what it looks like--but yours 
is an oddity, because it bumped up in 2005. Do you think that 
your meth seized will go down in 2006 so far?
    Mr. Abrahamson. Yes.
    Mr. Souder. So you're not getting as much replacement meth 
as what you were--one big bust, you get----
    Mr. Abrahamson. Yes. One big bust, you can get 10 pounds. 
You could take down an entire organization and only get a 
pound.
    Mr. Souder. So it's very hard to make any conclusions right 
now off your data, because--meth's a big problem. That's a 
conclusion of yours. But it's tough to--because it's hard for 
us to get some of that specific data. We get aggregate data. 
But one of the great things about field hearings is to try to 
see what's happening, but your cases become smaller.
    Do you find when you take--when you get--do you have any 
comments on what I said about how it might be moving across 
from Mexico? Do you think some of this is maybe individuals 
taking small amounts and then financing their trips with it, or 
does this seem to be--because we're not getting the loads. 
We're getting the loads of everything else.
    You mentioned that the price went up from here compared to 
the border, but that's true of cocaine; that's true of heroin; 
that's true of marijuana. Just the number of stops, unless it's 
using a different distribution system--it's either that, or 
they're speculating we've got a huge hole where they're 
actually bringing it in big amounts.
    And the question is, are they bringing in raw ephedra 
across and then finding a different way to manufacturer. We're 
really watching those type of trends, because we've got a--
somewhat of a disconnect, as you could hear me--today. And I'm 
trying to piece your micro information back with what we're 
getting at the macro.
    Do any of you have any additional comments that you'd like 
to make on anything you've heard today?
    Thank you for coming. Once again, I'd like to be kept very 
closely posted on what you're doing in Mesa County, because 
that's very interesting. Thank you for coming forth, being open 
about your testimony as well.
    There is no question from going through drug treatment 
programs that drug treatment is--we need more in the prison 
system itself. We need a better plan outside. We've increased 
the funding. One of our frustrations is there isn't anybody 
who's ever worked with narcotics, as you even stated with your 
husband, who hasn't been through--you see these people go 
through six or seven.
    The question is, how do we make it more effective. We last 
week had the founder of the matrix program testify in front of 
us. He's been doing this for a long time and working with it. 
Obviously, if everybody could get a really extended treatment 
program and then get a really great job afterwards and have a 
wonderful supporting family, it would go better. But we don't 
have that as an option in our system.
    And so we're trying to figure out--OK. Clearly, 
accountability works. And accountability starts with the 
testing to hold them accountable. The second part of 
accountability is just like accountability partners, whether 
it's your spouse and family--immediate people around you.
    But there isn't any question it's one of the reasons that 
many of us favor access to recovery and other more flexible 
programs--is if somebody has a life-changing experience and 
really makes a commitment, whether it's--usually to 
Christianity, but it can be other things as well.
    You make that kind of personal commitment, and you're more 
likely to change, because it starts to have an impact around 
you. And many of the most effective programs that we see are in 
those kind of changes. And thank you for being open about that, 
because the government doesn't like to talk about that part a 
lot, but it's a very key component.
    When you get down in at the grassroots level of what 
happens, you see that those kind of changes are at the core of 
many people who actually suddenly, after going through seven 
treatment programs and law enforcement four or five times--it 
doesn't mean you become perfect. But often that's the change 
that really sticks.
    And it's frustrating in government how to accommodate that 
and work with that when we all know it's true, but we got to be 
very careful in a very diversified society how we address it.
    Well, thank you all for your commitment. If you'll pass 
through--often, the--your deputies in your office, everybody 
who takes all the intake get no credit. We appreciate that and 
the law enforcement, the officers who are out on the street 
risking their lives every day for it, the treatment program 
people who are working. This is tough stuff.
    The most common question I get when we go for the funding 
is, ``Don't you feel like giving up'', or ``We spent money on 
that last year. How come you didn't fix it?'' You know, we 
don't ``fix'' spouse abuse. We don't ``fix'' child abuse. We 
don't ``fix'' rape.
    You do--is you battle it the best you can. And if you can 
control it to some degree and make progress--you save one 
family at a time, one person at a time, one child at a time. 
And you're doing very important work, and we thank you very 
much for it. With that, the subcommittee stands adjourned.
    [Whereupon, at approximately 12:30 p.m., the subcommittee 
was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4235.033

[GRAPHIC] [TIFF OMITTED] T4235.034

[GRAPHIC] [TIFF OMITTED] T4235.035

[GRAPHIC] [TIFF OMITTED] T4235.036

[GRAPHIC] [TIFF OMITTED] T4235.037

[GRAPHIC] [TIFF OMITTED] T4235.038

[GRAPHIC] [TIFF OMITTED] T4235.039

[GRAPHIC] [TIFF OMITTED] T4235.040

[GRAPHIC] [TIFF OMITTED] T4235.041

[GRAPHIC] [TIFF OMITTED] T4235.042

[GRAPHIC] [TIFF OMITTED] T4235.043

[GRAPHIC] [TIFF OMITTED] T4235.044

[GRAPHIC] [TIFF OMITTED] T4235.045

[GRAPHIC] [TIFF OMITTED] T4235.046

[GRAPHIC] [TIFF OMITTED] T4235.047

[GRAPHIC] [TIFF OMITTED] T4235.048

                                 <all>

</pre></body></html>
